<html>
<title> - PROGRESS REPORT: HURRICANE SANDY RECOVERY--ONE YEAR LATER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



       PROGRESS REPORT: HURRICANE SANDY RECOVERY--ONE YEAR LATER

=======================================================================

                                (113-41)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

85-550 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina

















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Peter M. Rogoff, Administrator, Federal Transit 
  Administration.................................................     3
Hon. Victor M. Mendez, Administrator, Federal Highway 
  Administration.................................................     3
Hon. Joseph C. Szabo, Administrator, Federal Railroad 
  Administration.................................................     3
Elizabeth A. Zimmerman, Deputy Associate Administrator, Office of 
  Response and Recovery, Federal Emergency Management Agency.....     3
Lieutenant General Thomas P. Bostick, Commanding General and 
  Chief of Engineers, U.S. Army Corps of Engineers...............     3

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Peter M. Rogoff:

    Prepared statement...........................................    43
    Answers to questions for the record from the following 
      Representatives:

        Hon. Bill Shuster, of Pennsylvania.......................    48
        Hon. Tom Rice, of South Carolina.........................    50
Hon. Victor M. Mendez:

    Prepared statement...........................................    51
    Answers to questions for the record from Hon. Bill Shuster, a 
      Representative in Congress from the State of Pennsylvania..    58
Hon. Joseph C. Szabo:

    Prepared statement...........................................    60
    Answers to questions for the record from Hon. Bill Shuster, a 
      Representative in Congress from the State of Pennsylvania..    67
Elizabeth A. Zimmerman:

    Prepared statement...........................................    71
    Answers to questions for the record from the following 
      Representatives:

        Hon. Bill Shuster, of Pennsylvania.......................    86
        Hon. Jeff Denham, of California..........................    92
Lieutenant General Thomas P. Bostick:

    Prepared statement...........................................    99
    Answers to questions for the record from Hon. Bill Shuster, a 
      Representative in Congress from the State of Pennsylvania..   105



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
       PROGRESS REPORT: HURRICANE SANDY RECOVERY--ONE YEAR LATER

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2013

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order.
    We are pleased to welcome our distinguished panel of 
witnesses for this morning's hearing: the Honorable Peter 
Rogoff, the Administrator of the Federal Transit 
Administration; the Honorable Victor Mendez, Administrator of 
the Federal Highway Administration; the Honorable Joseph Szabo, 
Administrator of the Federal Railroad Administration; Elizabeth 
Zimmerman, Deputy Associate Administrator for the Office of 
Response and Recovery for the Federal Emergency Management 
Agency; and Lieutenant General Thomas Bostick, Commanding 
General and Chief of Engineers, U.S. Army Corps of Engineers.
    Thank you all very much for being here this morning.
    The purpose of today's hearing is to review the progress of 
the gathered agencies in implementing the recovery objectives 
and meeting programmatic deadlines authorized and mandated in 
the Sandy Supplemental.
    Hurricane Sandy made landfall on October 29th, 2012, as a 
Category One hurricane just south of Atlantic City, New Jersey. 
Sandy was responsible for more than 130 deaths and $50 billion 
in economic losses. As a result of the storm, the President 
made major disaster declarations in 12 States and the District 
of Columbia.
    In response to this historic natural disaster, last January 
Congress passed and the President signed into law the combined 
Disaster Relief Appropriations Act of 2013 and the Sandy 
Recovery Improvement Act of 2013, known collectively as the 
Sandy Supplemental. The law authorized a new Emergency Relief 
Program within the Federal Transit Administration and provided 
$50.5 billion to certain Federal agencies who support disaster 
recovery and assistance.
    The law also authorized much-needed reforms and streamlined 
disaster assistance programs authorized by the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act. Key 
reforms included expedited debris removal, public assistance, 
alternative procedures, Federal assistance to individuals and 
households, and streamlined environmental review of hazard-
mitigation projects.
    Since Hurricane Sandy devastated the east coast, the 
Federal agencies have worked together with State and local 
partners to get storm-affected areas and its citizens back on 
their feet. Much has been accomplished, but there is still 
considerable work to do.
    The committee is committed to continued oversight of 
recovery efforts and to working with the agencies represented 
in this morning's hearings to achieve programmatic goals laid 
out in the Sandy Supplemental. I look forward to hearing from 
the witnesses on this important progress made to date and how 
the committee can partner with agencies to ensure ongoing 
efforts are efficient and that any challenges to recovery 
efforts are addressed promptly.
    Since your written testimony has been made part of the 
record, the committee requests that you limit your summary to 5 
minutes.
    And, with that, I yield to the ranking member, Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. I join with you in 
welcoming our witnesses this morning.
    Today's hearing is certainly timely. Over the weekend, we 
were reminded once again of the wrath that Mother Nature can 
visit upon humankind. News reports of the typhoon that struck 
the Philippines paint a grim picture of devastation and 
suffering, the magnitude of which is difficult to fathom.
    It was just over a year ago that Hurricane Sandy made 
landfall on our own shores. Ten months ago, Congress 
appropriated tens of billions of dollars to aid in those 
recovery efforts.
    Helping each other in times of need is an honorable 
American tradition and one that I believe deserves recognition 
as we tackle Federal budgetary constraints. It is in our nature 
to provide emergency aid to hard-hit communities, and it is our 
duty to ensure that funds Congress has appropriated are 
provided in a timely manner.
    Although this hearing is entitled ``Progress Report: 
Hurricane Sandy Recovery--One Year Later,'' Hurricane Sandy 
actually collided with a nor'easter, morphing into a monstrous 
superstorm. While the bulk of the damage occurred on the 
northeastern seaboard, the storm's reach extended far and wide. 
My own district in southern West Virginia experienced massive 
snowfalls and widespread power outages. The roofs of family-
owned stores collapsed, destroying businesses. Trees toppled 
under the weight of the snow, creating impassible roads, 
isolating some residents and cutting them off from emergency 
assistance.
    In addition to providing needed post-Sandy funding, 
Congress enacted the Sandy Recovery Improvement Act in January 
to provide more flexible recovery tools. I look forward to 
hearing from FEMA on the status of the implementation of that 
act, particularly on the status of the rulemaking to review, 
update, and revise the individual assistance factors, a matter 
I had specifically requested in the legislation, to ensure more 
timely and responsive disaster assistance and to direct greater 
attention to the kinds of losses that we saw in West Virginia 
and elsewhere.
    I also look forward to hearing about the response and 
recovery efforts of public transportation systems damaged by 
Sandy. The damage to subway stations, tunnels, tracks, 
maintenance facilities, and rolling stock was staggering. By 
all accounts, transit systems in affected areas undertook 
impressive efforts to quickly restore service to their millions 
of riders and took interim precautions for this storm season to 
better protect their assets. But now the longer term work must 
be done to ensure that systems are built back stronger.
    Again, I thank you for this timely hearing, Mr. Chairman, 
and I yield back.
    Mr. Shuster. I thank the gentleman. And, with that, we will 
start off with the Administrator for the Federal Transit 
Administration, Mr. Rogoff.

   TESTIMONY OF HON. PETER M. ROGOFF, ADMINISTRATOR, FEDERAL 
 TRANSIT ADMINISTRATION; HON. VICTOR M. MENDEZ, ADMINISTRATOR, 
     FEDERAL HIGHWAY ADMINISTRATION; HON. JOSEPH C. SZABO, 
 ADMINISTRATOR, FEDERAL RAILROAD ADMINISTRATION; ELIZABETH A. 
 ZIMMERMAN, DEPUTY ASSOCIATE ADMINISTRATOR, OFFICE OF RESPONSE 
    AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY; AND 
 LIEUTENANT GENERAL THOMAS P. BOSTICK, COMMANDING GENERAL AND 
        CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Mr. Rogoff. Thank you, Mr. Chairman, Ranking Member Rahall, 
members of the committee.
    Hurricane Sandy devastated communities in its path and 
triggered the worst public transit disaster in U.S. history. On 
the day that Hurricane Sandy hit the northeast region, more 
than half the transit trips in America were not available. And 
even days after the storm, as systems in Boston and Washington, 
DC, and Philadelphia came back online, fully a third of 
America's transit trips weren't available.
    This truly was a national transit disaster that required a 
national response. And the Federal Transit Administration has 
been fully engaged in that response, beginning even days before 
Superstorm Sandy made landfall.
    We are proud of the tremendous progress that FTA has made 
over the last year to help the region recover. As the chairman 
pointed out, a lot of work has been done and much remains to be 
done. Today, work is underway to repair transit substations in 
New Jersey, the Montague R Line train tube connecting Brooklyn 
and Manhattan, the Green Point Tunnel connecting Brooklyn with 
Queens, and many, many more projects are ongoing.
    To date, we have allocated $5.7 billion to the hardest-hit 
transit agencies in New York and New Jersey and affected 
agencies in Pennsylvania, Connecticut, Rhode Island, and 
Massachusetts. The funding window is open. There are billions 
of dollars in restoration and construction activity going on as 
we speak. And we will be reimbursing the transit agencies for 
this work as they bring funding applications to us.
    Our rapid response to help restore service would not have 
been possible without FTA's Emergency Relief Program. When 
President Obama first proposed this program in his fiscal year 
2012 budget, it was envisioned as an important mechanism for 
strengthening FTA's ability to provide timely disaster 
assistance to transit agencies whose assets are damaged or 
destroyed.
    I commend this committee for agreeing to the President's 
request and establishing this new program through MAP-21. It 
came just in time for Hurricane Sandy and has more than proven 
its worth. Through this new authority, we believe FTA's 
response stands as a model for Federal disaster assistance.
    That said, I need to sound an important note of caution. At 
present, unlike our partners at the Federal Highway 
Administration, the FTA has no emergency relief funds available 
for any catastrophic event other than Hurricane Sandy. That 
means that we will not be able to respond in a timely way 
should transit assets suddenly be destroyed by a tornado in 
Arkansas, or a hurricane in Florida, or an earthquake in 
California.
    The President's budget request for fiscal year 2013 and 
again in fiscal year 2014 each sought $25 million to capitalize 
the FTA Emergency Relief Program so that we can be at the 
ready. I strongly encourage Congress to appropriate these funds 
so, when the next disaster strikes, FTA will be in a position 
to respond.
    For Sandy relief, as in all of our work, we are committed 
to the highest level of financial stewardship. We are ensuring 
that grantees don't receive both insurance money and Federal 
reimbursements for the same claims. We are also ensuring that 
grantees don't receive payments from both FTA and FEMA for the 
same expenses. We are expanding on our well-established 
procurement reviews and oversight processes to better detect 
and prevent any possibility of waste, fraud, and abuse.
    Good stewardship also means that taxpayers should not be 
asked to pay for the restoration of the same assets a second or 
third time. It is important to remember that many of the 
transit assets that were flooded during Hurricane Sandy were 
also flooded just 1 year earlier during Hurricane Irene. The 
transit riders of New York and New Jersey should not have to 
put up with the stress, the cost, and the inconvenience of 
having the same transit facilities destroyed by one storm after 
another.
    That is why FTA, in accordance with the Disaster Relief 
Appropriations Act, has dedicated a significant portion of the 
appropriated funds to projects that will help transit agencies 
better withstand future disasters. Importantly, we feel that 
the taxpayer should not have to pay to restore these facilities 
a second or third time. That is also why, in allocating these 
resiliency funds, our highest priority will be on better 
protecting the existing vulnerable infrastructure that is 
serving millions of passengers each day.
    Without adequate coordination, investments to protect one 
rail yard against rising waters might only serve to flood a 
neighboring rail yard that serves even more people. So FTA will 
be very focused on regional solutions that consider the entire 
tristate network as a whole.
    As you can imagine, when making these resiliency 
investments, there is no point and no value to the traveling 
public or the taxpayer to protect one segment of a rail line if 
it is only going to flood out 5 miles farther down that rail 
line. So we will be looking at the systems as a whole and 
ensuring that the taxpayers' dollars get the greatest bang for 
the buck in protecting existing assets.
    Thank you for your time. I will be happy to answer 
questions when all of the other panelists have spoken.
    Mr. Shuster. Thank you very much.
     And, next, the Administrator of the Federal Highway 
Administration, Mr. Mendez. You may proceed, sir. Thank you.
    Mr. Mendez. Thank you very much. And good morning, Chairman 
Shuster, Ranking Member Rahall, and members of the committee. 
Thank you very much for this opportunity to discuss the Federal 
Highway Administration's Hurricane Sandy response efforts.
    Our country has experienced a number of devastating 
disasters over the past year, from Hurricane Sandy to the 
recent Colorado floods. The Obama administration is committed 
to helping Americans recover from the damage caused by these 
and other natural disasters.
    Although lives lost from such disasters can never be 
replaced, programs like FHWA's Emergency Relief Program play a 
pivotal role in helping communities rebuild critical 
transportation infrastructure. The ER Program provides funding 
to States for the repair and reconstruction of Federal-aid 
highways that have suffered serious damage as a result of 
natural disasters or catastrophic failures from an external 
cause. The program also provides funding for roads on Federal 
lands.
    In MAP-21, Congress made some changes to the ER Program, 
and FHWA acted quickly to issue ER implementing guidance to 
States prior to the act becoming effective. The Department also 
acted quickly to issue MAP-21 rulemaking establishing a new 
categorical exclusion for emergencies. We have already used the 
authority to help expedite the delivery of critical 
transportation projects in emergencies.
    Transportation infrastructure plays a critical role in 
maintaining mobility for the American people, supporting our 
residents, our businesses, and our economy. The importance of 
our infrastructure comes into its sharpest focus after a 
natural disaster like Hurricane Sandy.
    From the moment that Hurricane Sandy hit in late October of 
2012, Federal, State, and local agencies worked closely 
together with an unprecedented level of cooperation to help 
impacted States rebuild and recover.
    I am proud to say that the Department and FHWA have been at 
the forefront and center of all these efforts. Our priority was 
to provide needed aid very quickly to help get the region back 
on its feet and moving again by restoring the transportation 
system.
    At FHWA, our response started less than 24 hours after the 
storm made landfall, as we began to process the region's first 
requests for ER funding to rebuild roads and bridges. Less than 
48 hours after Sandy hit, FHWA made available the first quick-
release funds, $10 million to New York and $3 million to Rhode 
Island. Days later, FHWA made additional quick-release funds 
available: $4 million to North Carolina, $10 million to New 
Jersey, and $2 million for Connecticut. About a month later, we 
provided an additional $20 million to New York and an 
additional $10 million to New Jersey.
    To date, FHWA has provided nearly $671 million in ER 
funding to States and for Federal lands impacted by the storm. 
This includes funding to reopen a nationally significant 
landmark, Liberty Island, as well as funding for critical 
coastal routes, including 12 miles of the Ocean Parkway in New 
York's Long Island and 12 miles of Route 35 along the New 
Jersey coast.
    These are just a few examples of how States have used ER 
funds in the past year to restore important transportation 
facilities that were damaged by Hurricane Sandy. Emergency 
relief funds are helping States across the country undertake 
the massive job of restoring damaged roads and bridges so that 
the public can travel safely and communities can rebuild.
    In addition to implementing the ER Program, FHWA is looking 
ahead to determine how we can help our infrastructure better 
withstand natural disasters and how we can deliver projects 
more quickly. We are engaged in activities across the country 
to identify vulnerable highway infrastructure and minimize the 
effects of natural disasters and catastrophic events.
    We have also made some changes to our financial management 
practices and quick-release process to help States receive ER 
funding even more quickly.
    As we continually brace for new natural disasters and 
catastrophic failures, FHWA remains committed to helping States 
repair and reconstruct infrastructure damaged by such events. 
We will continue to explore innovative technologies and other 
tools to help highway infrastructure better withstand the 
effects of extreme weather events.
    So, with that, Mr. Chairman, I conclude my remarks and will 
be happy to answer your questions. Thank you.
    Mr. Shuster. Thank you very much.
    With that, the Administrator of the Federal Railroad 
Administration, Mr. Szabo. Please proceed.
    Mr. Szabo. Thank you, Mr. Chairman. To you and Ranking 
Member Rahall and members of the committee, I appreciate this 
opportunity to testify this morning.
    Hurricane Sandy is a vivid example of how closely our 
Nation's economic and social wellbeing is tied to the health of 
our transportation systems. With Northeast Corridor services 
shut down, already-overwhelmed highways experienced even higher 
levels of gridlock. Travel times for many commuters in so many 
cases doubled or tripled, if service was available at all. And 
when our transportation system suffers, travelers and 
businesses feel the pain.
    This should serve as a lesson to us that, as we rebuild, we 
must ensure our transportation is more resilient. We must build 
more redundancy into the system. And we must continue 
approaching transportation planning regionally, just as we are 
today through a multistate rail planning effort we call NEC 
FUTURE.
    FRA started preparing for Hurricane Sandy before it came 
ashore. We activated an emergency relief docket so railroads 
could apply for temporary regulatory relief to aid a timely 
response and recovery. And after Sandy's landfall, we 
coordinated technical assistance calls with railroad and 
industry associations that safely fast-tracked the recovery 
effort.
    The damage was extensive. And let me be clear: The effort 
that went into quickly repairing ties, ballast, tracks, signal 
systems, pumping stations, circuit breakers, and other vital 
infrastructure was truly remarkable. Overall, Amtrak had $31 
million in infrastructure and equipment damage and $41 million 
in lost revenues.
    To support the recovery effort, we provided $30 million to 
Amtrak through the Disaster Relief Appropriations Act of 2013. 
And to be better prepared in the future, we invested a transfer 
of $185 million from the FTA's Sandy recovery funding into the 
Hudson Yards right-of-way preservation project to secure a 
permanent path into Penn Station.
    Another big step forward for increasing Northeast Corridor 
redundancy and resiliency came through the Sandy Appropriations 
Act, which included $81 million to assist such efforts. 
However, this money cannot be spent unless the restriction is 
lifted on Amtrak's ability to use working capital funds for 
operating expenses, as currently provided for under PRIIA. We 
propose an amendment in an appropriations bill to amend the 
Sandy Act to delete this prohibition on temporary fund 
transfers. That way, the money can be fully invested in better 
preparing the Northeast Corridor to face future natural 
disasters.
    The Northeast Corridor has been the backbone of the 
region's economy for two centuries. Today, it serves a 
passenger rail market that is as strong and full of potential 
as any in the world. But its capacity is constrained and its 
resiliency, as Sandy taught us, must be fortified.
    Clearly, we must better prepare the Northeast Corridor for 
future natural disasters. That is one challenge. But this 
challenge will be further served if we fully commit to 
positioning this vital transportation asset to support the 
Northeast's continued prosperity.
    Our NEC FUTURE program is preparing us to move forward. It 
will provide Northeast Corridor States and stakeholders with a 
shared vision for investing in the types of rail services 
needed to meet demand through the year 2040. But an additional 
$25 million is needed to complete this critical effort.
    Now is the time to complete the program. Now is the time to 
provide rail with the predictable and reliable Federal funding 
needed to strengthen the Northeast Corridor's resiliency and 
its redundancy, in addition to its overall safety, reliability, 
and efficiency.
    Thank you. I look forward to questions.
    Mr. Shuster. Thank you, Mr. Szabo.
    And, next, from FEMA, Ms. Zimmerman. Please proceed.
    Ms. Zimmerman. Good morning, Chairman Shuster. Good 
morning, Ranking Member Rahall and members of the committee. I 
am very pleased to be here and have this opportunity to speak 
with you today.
    When Hurricane Sandy hit landfall----
    Mr. Shuster. Can you pull your microphone a little closer?
    Ms. Zimmerman. Sure.
    Mr. Shuster. Thank you.
    Ms. Zimmerman. Is that better?
    When Hurricane Sandy made landfall, battering dozens of 
States along the east coast, FEMA was there. We were on the 
ground before the storm, during the storm, and, obviously, 
after the storm. We were there supporting our State and local 
partners. We will be there for as long as it takes to help the 
disaster survivors and the communities recover.
    But FEMA does not do this alone. As it is noticed on the 
panel here, our partners from Department of Transportation as 
well as the Army Corps of Engineers are a part of the community 
that we refer to as a community as a whole--everybody working 
together in disaster response.
    When it comes to the community working together, with our 
friends at the Department of Transportation and FTA, we have 
been working together very closely with the Sandy Recovery 
Improvement Act and those efforts that came together to join us 
in the partnership. We also have a longstanding partnership 
with the Corps of Engineers in response and recovery.
    In response to Hurricane Sandy, this committee is more than 
aware of the 23,000 people that sought refuge in the temporary 
shelters as well as the 8.5 million people who lost power as a 
result of Hurricane Sandy. The storm flooded numerous roads, 
tunnels, blocked the transportation corridors, deposited 
extensive debris along the coastline, and displaced hundreds of 
thousands of people.
    FEMA coordinated the Federal Government's response to 
Hurricane Sandy, working with its partners through the National 
Response Framework and issuing 425 mission assignments to 29 
Federal agencies.
    The recovery efforts from Hurricane Sandy were guided by 
the National Disaster Recovery Framework, which was published 
in 2011. The NDRF is a guide for how the whole community works 
together following disasters to best meet the recovery needs of 
the individuals, families, and the communities, States, and 
tribes.
    It established a coordination structure for all interagency 
partners, called the recovery support function, to work 
together to solve problems to improve access to resources and 
foster the coordination among Government and private 
stakeholders. This structure remains in place and continues as 
we transition from our joint field offices to a Sandy recovery 
office, which will include both New Jersey and New York 
disasters, that are still open and will be transitioning within 
the next month.
    For public assistance, FEMA is also providing grants 
through the Public Assistance program which assists State, 
local, and tribal governments, as well as certain private 
nonprofits, in response to recovery efforts. FEMA has obligated 
more than $3.2 billion in Hurricane Sandy Public Assistance 
Grants. This is for the 15 States that were impacted by Sandy.
    In addition to assistance for the emergency protective 
measures and debris removal, FEMA's Public Assistance program 
provides funding for the repair, restoration, reconstruction, 
and replacement of infrastructure that was damaged or destroyed 
by the disaster.
    Over 3,400 public assistance projects have been approved 
and more than $2.1 billion has been obligated in New York. In 
New Jersey, over 5,000 public assistance projects have been 
approved and over $950 million has been obligated. Eleven 
additional States that were declared for public assistance due 
to the efforts for Hurricane Sandy have been obligated an 
approximate $150 million in assistance.
    For individual assistance programs, FEMA has provided 
assistance to over 182,000 disaster survivors in New York, New 
Jersey, and Connecticut. The forms of assistance include 
financial assistance, eligible home repair assistance and 
personal property loss, as well as medical and funeral expenses 
resulting from the disaster.
    For the Sandy Recovery Improvement Act, the Sandy 
Supplemental, just under 100 days after Sandy made landfall, 
the Recovery Improvement Act came into law. It gave FEMA a 
great opportunity to implement many of the initiatives they 
have been working on and we have made significant progress on 
legislation impacting the agencies so that we could move 
forward from the post-Katrina reform act. But the Sandy 
Supplemental was by far the biggest change to the Stafford Act 
since the Stafford Act was signed into law.
    FEMA has aggressively been applying the Sandy Recovery 
Improvement Act, tackling 18 lines of action, 8 regulatory 
projects, 2 reports, and at least 9 policies in the 383 days 
since Sandy descended on our shores. To date, 13 of the 17 
provisions are tracking for the Sandy Recovery Improvement Act 
as we move these forward--provisions for public assistance, the 
alternate procedures for permanent work, public assistance, 
alternative procedures for debris removal, and the ability to 
federally recognized tribal governments as sovereign nations.
    I would like to take this opportunity to thank all of you 
for the Sandy Recovery Improvement Act and the work that has 
moved forward on that.
    In conclusion, I look forward to answering any questions 
that you may have on that as we move forward. Thank you.
    Mr. Shuster. Thank you, Ms. Zimmerman. I appreciate that.
    Finally, the Chief of Engineers of the U.S. Army Corps of 
Engineers, General Bostick. Please proceed.
    General Bostick. Mr. Chairman, Ranking Member Rahall, and 
members of the subcommittee, thank you for the opportunity to 
testify before you today on the Corps' continued work on 
Hurricane Sandy recovery. I am also happy to join this panel of 
interagency partners because it truly is a team effort.
    The support from the Federal Government during the response 
to Sandy was unparalleled, and the Corps was part of a larger 
team that provided technical assistance and rapid-response 
activities across the impacted areas. The success of these 
efforts was a result of a dedicated and determined interagency 
team, including the Corps, other Federal agencies, State and 
local governments, and many others.
    On January 29th, 2013, the President signed into law the 
Disaster Relief Appropriations Act of 2013. The act appropriate 
$5.35 billion to the Corps to address damages caused by 
Hurricane Sandy and to reduce future flood risks in ways that 
will support the long-term sustainability of the coastal 
ecosystem and communities and reduce the economic costs and 
risks associated with large-scale flood and storm damages in 
areas along the North Atlantic coast.
    The Corps' Hurricane Sandy recovery program is structured 
with three components: first, near-term; second, 
investigations; and, third, construction components. We 
continue to make progress on all of these efforts.
    The near-term component supports emergency operations and 
repair and restoration of previously constructed Corps projects 
along the coastline and dredging of Federal navigation channels 
and repair of Corps-operated structures.
    I will mention a few areas: Beach repair and restoration of 
existing projects along the Atlantic coast began in February of 
2013 and is scheduled to conclude in the fall of 2014. The 
Corps has placed approximately 12 million cubic yards of sand 
to repair dunes and berms. Work continues to ensure these 
projects are restored to their original design conditions.
    Thus far, the Corps has obligated over $400 million to 
restore damaged projects. The repair of navigation channels and 
structures damaged in the storm began in February of 2013, and 
most projects are scheduled for completion in the spring of 
2015. Over $170 million has been obligated for this purpose.
    The investigations component expedites completion of 
ongoing studies at full Federal expense and also funds the 
North Atlantic Coast Comprehensive Study to develop a risk 
reduction framework for the 31,000 miles of coastline within 
the North Atlantic Division's area that was affected by Sandy.
    The comprehensive study team, which includes experts in 
coastal planning, engineering, and science from more than 90 
governmental, academic, and nongovernmental entities, has 
developed a draft framework that is currently under review. The 
team will continue its review and develop various tools to 
assist with future planning efforts.
    The study will also serve as a catalyst for future analysis 
that will reduce risk to vulnerable populations, property, 
ecosystem, and infrastructure. Up and down the coast, areas 
where there were risk reduction projects in place prior to 
Hurricane Sandy fared much better than those areas without 
protection.
    The third component of the program, the construction 
component, will implement projects that were previously 
authorized but not constructed at the time of Hurricane Sandy 
landfall. It will also address projects identified for 
implementation following the investigation process as well as 
projects that fall within the Corps' Continuing Authorities 
Program.
    Planning, design, and expedited reevaluations are underway 
for 18 authorized but not yet constructed projects, and 
construction on several projects is anticipated to begin early 
in 2014. Construction work on roughly half of these flood risk 
reduction projects is expected to be completed by mid-2015. The 
remaining construction is dependent upon the outcome of pending 
reevaluation reviews.
    Of the identified continuing authority projects, 
Massachusetts, Connecticut, New York, New Jersey, Delaware, 
Maryland, and Virginia are currently scheduled to receive beach 
erosion and coastal storm damage risk reduction projects. We 
expect the majority of this work to be completed by 2016.
    In the year since Hurricane Sandy, we have heard from many 
residents in the impacted communities regarding their concerns 
about coastal storm damage risk reduction features. We continue 
to communicate with the local communities about the purpose of 
these projects and to clear up misconceptions about the use of 
real estate.
    Hurricane Sandy demonstrated the vulnerability of our 
coastal communities and the need for all levels of Government 
to communicate risk clearly and to continually take this on as 
a collective, shared responsibility to reduce residual risks.
    I look forward to your questions.
    Mr. Shuster. Thank you very much, General.
    I appreciate all of your testimony.
    Now I would like to ask several questions, mostly to Mr. 
Rogoff.
    You spoke at length about the significant amount of money 
you are setting aside for resiliency projects in the transit 
system. What you didn't mention in your verbal testimony, but 
it is clear in your written testimony, is that you also believe 
there is a need to protect against threats from climate change.
    My concern is that the Supplemental package was not sold to 
Congress as a bill to fight global warming. However, it appears 
in your testimony, at least your written testimony, that it is 
a top priority for the FTA, resiliency moneys to mitigate the 
effects of climate change.
    Therefore I guess we need to know how you are going to 
ensure that that $5.8 billion, I believe, in resiliency money 
will be spent directly on Sandy-related expenses and not on the 
administration's agenda or climate change.
    Mr. Rogoff. Well, Mr. Chairman, our focus is on protecting 
the existing transit infrastructure that supports millions of 
people, almost a third of the Nation's transit ridership, from 
whatever threats it is exposed to. We are keenly focused on, 
obviously, the impact of the last storm but also scenarios that 
protect us from the next storm. So if the wind was coming from 
a different direction in the next hurricane, we need to be 
prepared for those water incursions.
    I can assure you, we are looking principally, first and 
foremost, at the damage assessments that resulted from Sandy 
and what needs to be protected going forward. We are going to 
be mindful of the fact that the water levels are rising in that 
region; they have been. And we want to make sure that we are 
not going to make investments with taxpayer dollars that are 
then going to be inadequate as the water level continues to 
rise.
    Mr. Shuster. How are you going to prioritize those 
resiliency projects?
    Mr. Rogoff. As I said in my oral remarks, and I believe 
they are also in my written remarks, our highest priority, 
number one, right away, is to protect the existing 
infrastructure, especially the subway infrastructure but also 
the Long Island Railroad, Metro North, and New Jersey Transit 
infrastructure.
    Much of this infrastructure was built decades ago. Mr. 
Nadler and I were at an event in Brooklyn over the Montague 
Tube. That is one of the pieces of infrastructure that we will 
be looking to protect. That infrastructure is 93 years old and 
was never built with water incursions of this kind in mind. And 
that is what we need to protect, because the R train that runs 
through that tube is serving tens of thousands of people a day.
    Mr. Shuster. And what criteria will you base the 
competitive grants to be awarded?
    Mr. Rogoff. First and foremost we will base it on whether 
they have a comprehensive plan to protect existing 
infrastructure that is serving passengers now, and how many 
passengers. We know what we want to avoid. We want to avoid an 
investment that protects one part of the line but not the other 
part of the line.
    We also are going to infuse in that criteria a regional 
approach because, as I said in my oral remarks, much of the 
infrastructure is so close together, between what the Long 
Island Railroad uses, what the Subway uses, New Jersey Transit, 
and Amtrak, we could cause inadvertent harm by protecting one 
piece of infrastructure from water incursion only to flood a 
neighboring piece of infrastructure that could be serving even 
more passengers and could do even more damage.
    So our highest priority is going to be on the 
infrastructure that serves existing passengers and, also, 
making sure that all of the agencies are playing well in the 
sandbox and have a comprehensive plan so that the taxpayer 
investment has the maximum level of protection.
    Mr. Shuster. And talking about taxpayer investment, will 
the cost-benefit analysis be----
    Mr. Rogoff. It will be.
    Mr. Shuster [continuing]. The highest priority?
    Mr. Rogoff. It will be an elemental part of the application 
process. We need to be careful, like I said, to make sure that 
there is a regional approach and the cost-beneficial project 
for one piece of infrastructure doesn't do unknown damage to 
the neighboring piece of infrastructure.
    Mr. Shuster. Well, but the cost-benefit really needs to be, 
in my view----
    Mr. Rogoff. It----
    Mr. Shuster. And it is up to us, the stewards of the 
taxpayer dollars, to make sure that that is central.
    Mr. Rogoff. And that is one of the recommendations that has 
also come out of Secretary Donovan's Sandy Task Force and is 
going to be an elemental part of our analysis.
    Mr. Shuster. And how will you make this transparent to the 
taxpayers? What process will you go through to make sure we can 
see how the process was laid out so that everybody is clear 
that cost-benefit was the highest priority?
    Mr. Rogoff. Well, I think we have a good history now, I 
believe, with this committee in terms of providing transparency 
in our discretionary grant-making decisions. Obviously, the 
committee has oversight authorities. We also have the Inspector 
General, who has considerable resources to oversee our 
processes. And we are more than happy to brief any subgroup or 
group of the committee on precisely how we are going to go 
about it.
    Mr. Shuster. It is also a concern to me, making certain 
that these transit authorities are not diverting these funds to 
their own projects out there that aren't part of the moneys 
that Congress intended and that you ought to be administering 
towards the resiliency, towards mitigation. Is that----
    Mr. Rogoff. I totally agree. We have been very clear. In 
terms of the volume of potential resiliency investments that 
have been identified for us, they go well beyond the amount of 
funds that we will have available. So we are going to be 
focused on the have-to-haves, not the nice-to-haves.
    Mr. Shuster. I didn't hear the last part.
    Mr. Rogoff. We are going to be focused on the have-to-have 
projects, the ones that have the maximum impact with the 
taxpayer dollars on protecting existing infrastructure. The so-
called nice-to-have projects will have to take a backseat.
    Mr. Shuster. All right. Well, and we have seen throughout 
our recent history, a lot of times, when you put these kind of 
dollars out there, they are diverted, they are not used wisely. 
So it is extremely important, obviously, to this committee and 
to the taxpayers that those things are done in a way that are 
transparent and they are done for its intended purpose so that 
we don't get mitigation malpractice, which we have seen, you 
know, many, many times in our recent history.
    Mr. Rogoff. I completely agree, Mr. Chairman. I think one 
of the benefits of running this program now through FTA, this 
is not to criticize the FEMA approach, but we have had an 
ongoing relationship with these transit agencies, knowing 
precisely what their capital plans have been for years. And we 
will be able to see straight up whether dollars are going 
towards something that has been planned for 9 years without a 
mitigation benefit versus true protection against the next 
disaster.
    Mr. Shuster. All right. Thank you very much, Mr. Rogoff.
    And, with that, Mr. Rahall?
    Mr. Rahall. Thank you, Mr. Chairman.
    First, I want to commend the entire panel for your 
dedication to public service.
    I want to also commend, Mr. Chairman, an individual that is 
in the audience listening to the testimony today, and that is 
the president of Amtrak, Joe Boardman.
    Welcome, Mr. Boardman. And I, again, commend you for your 
being here and listening to this testimony.
    I have a question for Mrs. Zimmerman. And I want to 
particularly thank FEMA, as well, for assisting on a particular 
issue in my congressional district in Logan County with which I 
have discussed directly with your director. And it is moving 
forward in a very positive resolution. I appreciate that.
    But my question to you, Mrs. Zimmerman, is in regard to the 
Sandy Recovery Improvement Act, which directed FEMA to review, 
update, and revise the individual assistance factors, as you 
know. What is the implementation status of this provision? And 
has FEMA reached out to States and tribes to identify the 
issues and concerns that resulted in this provision being 
enacted?
    Ms. Zimmerman. Yes, we did. Thank you, Ranking Member.
    First off, as soon as it passed, we took a look at that, 
and we made outreach to our partners through the National 
Emergency Management Association and the International 
Association for Emergency Managers, as well as the tribal 
constituents, to talk to our State and local and tribal 
partners to examine the individual assistance criteria.
    As you know, the criteria has been out there for a long 
time, and we needed to take a look at that and what really 
indicates when a community has been impacted and those disaster 
survivors and what it means. So we did that outreach starting 
almost immediately after the act was passed, pulled together 
those pieces of information, and we have been working with that 
to move it forward to be able to provide some guidance.
    We have drafted our proposal, and we are going to be 
working through the process of rulemaking to put that out there 
for stakeholders to once again take a look at it and to make 
comment before it goes into law. So we are in the process of 
that, and we appreciate all the outreach and the comments that 
we did receive from our constituents.
    Mr. Rahall. Thank you.
    Thank you, Mr. Chairman. That is all the questions I have. 
Thank you.
    Mr. Shuster. Thank you.
    Mr. Gibbs is recognized.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Mr. Shuster. Microphone.
    Mr. Gibbs. Is it working? There we go. I can see, it has a 
loose wire in there, I think. Anyway, I wanted to----
    Mr. Shuster. Flood damage.
    Mr. Gibbs. Yeah. Flood damage, he says.
    A couple questions to General Bostick.
    General, you know, we are working through the WRDA bill, as 
you know, the Water Resources Development Act. And one thing we 
are trying to do in the WRDA bill is streamline some of the 
studies, not eliminating studies, but, you know, doing it in a 
shorter period of time to bring the costs down and bring these 
projects to fruition.
    And I know especially in the construction authority part of 
the emergency legislation for Hurricane Sandy, it talks about--
and you mentioned this in your testimony--previously authorized 
Corps projects designed to reduce flood and storm risk, you 
know. And then it goes on to say in the law, ``modifying these 
existing Corps projects that do not meet these standards,'' and 
it goes on. But in that area of the law, I believe that 
environmental NEPA and economic analysis are waived.
    And so I guess my first question is, what impact are you 
seeing, you know, by--that is going further into streamlining 
in this emergency legislation. Has it been positive? Or what 
challenges for the Corps have we seen by, you know, doing some 
things and not having to do the economic analysis on those 
modifications or environmental impacts? Have you got any 
comment on that?
    General Bostick. Yes, Representative Gibbs. First, thanks 
to the entire congressional team that has been working WRDA. It 
has been very positive for us, that we will execute some of the 
missions that come out of that, assuming it is passed, to see 
the bipartisan support and the progress.
    In terms of the work that we are doing in Sandy, we feel 
fairly good at the progress that we are making. And the 
interagency support has been fantastic, from my view. We have 
been given authorities to move quickly, especially on the flood 
control and coastal emergency projects, where we are able to 
bring those back to the design conditions for those that are in 
the North Atlantic Division area.
    So that work is proceeding well. The work that we are doing 
in O&M is proceeding well. We still are working with the 
interagency partners, as we should, and we have not seen any 
holdup in our progress. So we feel good about where we are at.
    Mr. Gibbs. And you feel comfortable about any modifications 
to those authorized construction activities, not having to go 
through more studies and more analysis, that, you know, things 
are going along fine? You are OK with that?
    General Bostick. I am comfortable with the way the law was 
published, or it was passed. And we are working within that law 
and have no issues with it. Any modifications to the projects 
that we have are approved at the Assistant Secretary of the 
Army of Civil Works level, Ms. Darcy. And our work with her and 
in conjunction with OMB has gone well.
    Mr. Gibbs. Good.
    A second question regarding nonstructural alternatives. Has 
there been local requests versus--you know, lots of times, 
there is lots of--I think the locals request a lot of 
structural alternatives. What is the status on nonstructural 
alternatives? I know that you have had that authority since the 
1940s.
    And then, also--well, I guess answer the first part. Has 
there been requests from any locals on doing nonstructural 
alternatives?
    General Bostick. We have not had requests for nonstructural 
alternatives, but, as an engineering agency, we believe that is 
one of the options. And as we do the comprehensive study review 
that was directed as part of the Supplemental--we received $20 
million for that--I am certain that those types of 
nonstructural opportunities will be an option to consider.
    Mr. Gibbs. After Hurricane Katrina, was there much 
nonstructural alternatives implemented, put in place? Or what 
is the status?
    General Bostick. There were no nonstructural alternatives 
that were requested, but one of the first--or, actually, the 
first Chief's Report that I signed was an ecosystem restoration 
project of the Barataria Basin.
    And it is lines of defense that help reduce the risk of 
these disasters. When a storm comes in, it could hit flush on a 
city or you can have some lines of defense. Part of that lines 
of defense is ecosystem restoration, marshlands, it is barrier 
islands----
    Mr. Gibbs. Yeah. Let me just ask a followup on that. I know 
during our WRDA hearings there were some entities that were 
really pushing nonstructural alternatives. So let me make this 
clear. So I think you said in Hurricane Sandy there hasn't been 
any requests for nonstructural alternatives, and the 
nonstructural alternatives for Katrina was limited to some 
restoration but not anything more comprehensive than that?
    General Bostick. We had no requests for nonstructural 
alternatives.
    Mr. Gibbs. OK. Thank you. My time has expired. Thank you.
    Mr. Shuster. I thank the gentleman.
    And Ms. Norton is recognized for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. And thank 
you for this followup. I have already learned and begun to 
think about things I did not know.
    I thank all the witnesses for their very important 
testimony.
    I have been struck by the differences between emergency 
relief for highways and for public transportation. And I 
understand why--apparently, since 1972, we have authorized out 
of the Highway Trust Fund, apparently automatically, $100 
million for emergency relief for the Highway Administration. 
And, of course, I guess that is because you can see the damage 
to the bridges after a hurricane, and to the highways.
    Now, shall I say, in our wisdom, apparently in MAP-21, for 
the first time, we authorized emergency relief for transit, as 
well. But, unlike highways, no funding source was allocated, so 
we had a big fight here to make sure that there were funds for 
Sandy for that relief.
    Now, there are major cities of the United States which 
grind to a halt if their subways, their underground transit, 
does not go. And we already know about New Jersey and New York. 
I hope we never have to hear about Chicago. And I certainly 
hope we never have to hear about the national capital area 
region, because when Metro stops, the entire Federal Government 
shuts down. We have had Snowmaggedon here, several days 
shutdown. We know what happens. I think Sandy sends a shot 
across everybody's bow about your underground transportation.
    Now, this committee has long supported pre-disaster 
mitigation. Indeed, we have had studies done that show, on the 
average, four-to-one savings for pre-disaster mitigation.
    Now, I would like to know what these words, ``resiliency 
projects,'' mean. I understand New York is up and running, but 
that is about all you can say for it. When you say a resiliency 
project, Mr. Rogoff, what is the difference between a 
resiliency project and a repair project?
    Mr. Rogoff. A resiliency project, Mrs. Norton, is one that 
protects against the next storm rather than repairing----
    Ms. Norton. So who did the repair in New York or New 
Jersey, and is that different from who did the resiliency? Or, 
I suppose what I should say, are the fund sources different? 
They had to get up quickly just to get people to work.
    Mr. Rogoff. That is correct. But the emergency relief 
statute that you have identified in MAP-21 provides authority 
to fund both. And, indeed, the President's budget request, when 
he sent it up here for Hurricane Sandy, identified requests for 
both. I would----
    Ms. Norton. But what is the request for the emergency 
relief funding for transit?
    Mr. Rogoff. Originally, the request was $11.7 billion, if 
my memory serves. We then were given $10.9 billion. And after 
sequester, that was lowered to $10.5 billion.
    Ms. Norton. No, that is for Sandy.
    Mr. Rogoff. Yes, ma'am.
    Ms. Norton. I am talking----
    Mr. Rogoff. Oh.
    Ms. Norton. Has the administration supported anything 
comparable to the $100 million that comes out of the Highway 
Trust Fund for highways?
    Mr. Rogoff. Yes, it has. For the last 2 years, both in the 
2013 budget and in the 2014 budget, the administration has 
requested $25 million as an initial capitalization for the FTA 
Emergency Relief Program so that we could be ready to respond 
immediately, just as the Federal Highway Administration is, to 
disasters as they occur. We are still waiting to see funding 
for that request.
    Ms. Norton. None of us knows what will happen, but I 
certainly--given what this committee already knows about what 
we call pre-disaster relief on the ground, I would certainly 
hope that at least this small amount, $25 million for MAP-21, 
as a starter could begin us down the same road for underground 
transit, bearing in mind that not only do we have that clearly 
the case for large cities, but increasingly what cities and 
counties want to do is to put their own transit below where we 
could all see them.
    And I thank you very much, Mr. Chairman.
    Mr. Shuster. I thank the gentlelady.
    Mr. Rice from South Carolina is recognized for 5 minutes.
    Mr. Rice. I am just curious about Federal participation and 
State and local participation and what the relationships are. I 
live in a coastal area and, obviously, am very concerned about 
hurricanes. And I just think we need to have a conversation 
about what the appropriate level of Federal response is.
    With respect to the Highway Administration and replacing 
these roads, is the Federal Government putting the roads back 
on its own, or are we looking for State and local 
participation, as well?
    Mr. Mendez. Yes, sir. Thank you for the question.
    We work very closely with the State DOT, and, in turn, we 
work indirectly with the local governments. But based on our 
rules, I believe, it is only the State DOT that can request the 
funding. But they certainly are looking for local issues, as 
well, during an event.
    Mr. Rice. Well, is the Federal Government providing 100 
percent of the replacement funds, or are the State and local 
governments participating? Is there a set percentage that the 
Federal Government does, or are we looking for a 60/40 split, a 
two-thirds/one-third split? What are we doing?
    Mr. Mendez. There are two scenarios. First of all, there 
is, after the event, a 180-day scenario where you want to get 
things back on track. So you are not doing permanent repairs; 
you are doing interim repairs. At that point, if it is on a 
Federal highway system, it is a 100 percent Federal share. For 
permanent repairs to an interstate, it is a 90/10 split. If it 
is not an interstate, it is generally an 80/20 split.
    Mr. Rice. What confuses me is the total appropriations that 
we approved in Congress were over $60 billion between the two 
Sandy relief bills that we did. I heard earlier testimony and I 
read in the papers that the damage was $50 billion. So what I 
am curious about is where the extra $10 billion is going.
    We need to have a conversation about what the appropriate 
level of Federal contribution should be. What about on the 
transit systems? I mean, the Federal Government doesn't own or 
control or run any of these transit systems; is that correct?
    Mr. Rogoff. That is correct, we don't own them. But we do 
provide the majority of the capital funding for them as opposed 
to State and local government.
    Mr. Rice. OK. So when we are putting these things back, are 
we contributing 100 percent of the money to do it, or is 
State----
    Mr. Rogoff. Only in--following with the Presidential 
emergency designations, which follows not just FTA relief but 
other forms of Federal relief, there is a period right after 
the storm for which reimbursable expenses are at 100 percent. 
Then that ratchets down to 90 and 75, depending on the 
President's emergency designations.
    Mr. Rice. How much is going into the transit systems in New 
York and New Jersey for these repairs? Have you got an estimate 
of what the total is going to cost?
    Mr. Rogoff. We do for disaster. We can't necessarily say 
yet for----
    Mr. Rice. Can you give me a range?
    Mr. Rogoff. I can give you a number, sir, if you just give 
me a moment. In terms of our estimates for what we expect, 
response and recovery for the New York-New Jersey area we 
expect to be $5.827 billion. And agencies will get resiliency 
funds on top of that. Some of this resiliency money was sent by 
formula. Roughly $3 billion of it, at least, will be done on a 
competitive basis to make sure we are getting the best projects 
for the buck.
    Those estimates were done jointly by the FTA and FEMA as a 
result of damage assessments done together very shortly after 
the storm.
    Mr. Rice. OK. So that total, is that the Federal obligation 
or is that both?
    Mr. Rogoff. That is a combination of Federal and local 
because, like I said----
    Mr. Rice. OK. And what percentage of that is Federal?
    Mr. Rogoff. You know, Mr. Rice, I am going to ask you to 
let me get you those numbers as part of the record because----
    Mr. Rice. Just roughly. Is it over 50 percent?
    Mr. Rogoff. Oh, yes, sir.
    Mr. Rice. Seventy percent?
    Mr. Rogoff. Over that, because----
    Mr. Rice. Ninety percent?
    Mr. Rogoff. Part of it will be--like I said, part of it 
100, part of it 90, part of it 75, depending on when the actual 
bills come in. And that is not just an FTA dynamic; it covers 
other disaster relief programs across the Government.
    Mr. Rice. It seems to me that the Federal response to 
disasters has kind of changed in the last 10 years. I know when 
Hugo hit South Carolina, I believe the damages were about $6 
billion and the Federal Government contributed about $2 
billion. But now we are talking about damages of $50 billion 
and the Federal Government is contributing $60 billion.
    Mr. Rogoff. I am not sure that is correct. I think the 
thing to look at, Mr. Rice, here is what falls under the 
definition of ``damage,'' because there are other damage 
expenses that are not reimbursable by any Federal program that 
I am sure the New York and New Jersey folks would point to the 
costs for which they are not getting reimbursed for.
    Mr. Rice. And I think you are explaining some of it when 
you say you are putting money into resiliency, which is more 
than just repair. You are talking about further capital 
improvements.
    Mr. Rogoff. Correct.
    Mr. Rice. But I think we need to have a conversation about 
what the Federal role is.
    Thank you.
    Mr. Shuster. I thank the gentleman.
    And, with that, Mr. Nadler is recognized for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Administrator Rogoff, the chairman talked a few minutes ago 
about climate change. And forgetting that for the moment, we do 
know that, whether it is caused by climate change or not, we 
are getting more of these bad storms, the sea level is rising, 
and we are getting higher storm surges.
    Does the FTA have enough resources to protect the transit 
system in New York and other vulnerable areas, given our 
expectations over the next--and our--in light of our experience 
what the recent storms and storm surges have been, do you have 
enough resources to protect the transit system in New York and 
other vulnerable areas, or will there still be unmet needs? 
Will the $3 billion for resiliency projects be enough to do 
everything necessary to protect our coastal and low-lying 
cities from the long-term threat of rising sea levels and 
extreme weather events?
    Mr. Rogoff. No, it won't, sir. As I said in my oral remarks 
earlier, the stakeholders in the area have identified potential 
resiliency investments that far exceed what we have in the 
Federal envelope as a result of the Sandy Supplemental, which 
is why we are going to seek to ruthlessly prioritize the 
Federal dollars to the best projects with the greatest impact.
    Mr. Nadler. When you say ``far exceed,'' $3 billion, when 
you say ``far exceed,'' do you mean 4? 44?
    Mr. Rogoff. I have heard numbers well north of $11 billion 
or $12 billion. But I can't individually verify those estimates 
because they----
    Mr. Nadler. Order of magnitude $11 billion, $12 billion.
    Mr. Rogoff. At least. If you look at the reports that Mayor 
Bloomberg and Governor Cuomo have done, as well as others, you 
will see a wide universe of potential investments----
    Mr. Nadler. This is a problem we are going to have to 
address.
    Mr. Rogoff. Well, you are talking about the most transit-
dependent region of the country. I don't need to tell you that. 
This is an area where car ownership is at the lowest levels in 
the Nation. And the entire economy in the region is dependent 
upon an operating transit system.
    Mr. Nadler. Some people think, and I can detect in the 
questioning by the prior Member, I think, that maybe we 
shouldn't spend money on--disaster money on resiliency; we 
should only spend it on recovery. What would happen if we only 
spent money on recovery, we restore the systems exactly the way 
they were? After all, the Montague Tunnel has served us for 93 
years, serve us another 93 years. Why should we improve it?
    Mr. Rogoff. Because we will pay to restore it over and over 
and over again.
    Mr. Nadler. So it wouldn't be cost effective.
    Mr. Rogoff. We do not believe so.
    Mr. Nadler. OK. Let me ask you also that--Sandy 
Supplemental provided $118 million to Amtrak, which included 
$32 million for expenses related to consequences of Hurricane 
Sandy, and $86 million to advance capital projects on the 
Northeast Corridor infrastructure recovery and resiliency. I 
think you said before that Amtrak was not able to use the $86 
million. Why is that?
    I am sorry, Administrator Szabo.
    Mr. Szabo. There is language in the Sandy Act that actually 
restricts a provision under PRIIA which provides for the 
temporary transfer of funds for Amtrak to help smooth out their 
cash flows. And so it is important. All it takes in order to 
correct this problem is the deletion of four words in the Sandy 
Supplemental Act, and those four words are ``or any other 
act.''
    Mr. Nadler. Why were those four words put in there?
    Mr. Szabo. I can't speak as to why they were put in there. 
But I certainly know what the effect of them are, it was to 
undo, in essence, a provision that is provided for in PRIIA 
that allows for more effective cash management. And so with 
this money restricted, there are so many important projects 
that are necessary. You know, you just talked about the need 
for resiliency to make sure that when we repair something that 
we are going to be able to build it to a higher standard that 
will be flood resistant. I think of Substation 41, just there 
between New York and New Jersey, which was out during the storm 
and ended up severely restricting the flow of Amtrak commuter 
trains in and out of New York.
    Mr. Nadler. So if those words were removed and the $86 
million were made available, it would be used for hardening 
infrastructure, in effect.
    Mr. Szabo. Exactly. Making sure that it is built to modern 
standards that are going to resist----
    Mr. Nadler. Making sure that existing infrastructure would 
be more resistant for future forms.
    Mr. Szabo. Exactly.
    Mr. Nadler. Let me ask one thing. My time is beginning to 
run out. But, Administrator Rogoff, I think it is important for 
people to understand the real impact of the storm on our 
region's transit system. Can you talk a little bit about the 
extent of the damage, the number of people affected, and the 
timeline for how quickly service was restored?
    Mr. Rogoff. Well, the timeline in which service was 
initially restored is actually a large success. But you are 
talking about a service between Metro North and the Long Island 
Railroad and the subway system that serves close to 40 percent 
of the transit riders of America, and I should add, obviously, 
New Jersey Transit in that region. Right in the tristate 
region. And the damage was extensive.
    For New Jersey Transit, whole rail lines were washed out, 
we had to procure 350 buses immediately after the storm just to 
provide alternative mechanisms for the commuters from New 
Jersey to get to work. As you know, Brooklyn and Manhattan were 
cut off from one another. And even in the case of the 
Rockaways, Queens was cut off from Queens. You are talking 
about a region where, like I said, it is the largest transit-
dependent population where the economy could not function 
absent the mobility of workers. You are talking about the need 
for getting people at all hours to hospitals. Just for health 
care of the people in the region. I don't think you can 
overstate the impact or the elemental importance of the transit 
system.
    Mr. Nadler. My time has expired. Thank you.
    Mr. Shuster. Thank the gentleman.
    Mr. Hanna is recognized for 5 minutes.
    Mr. Hanna. Thank you for being here. Mr. Rogoff, in your 
written testimony, you indicate that the FTA will be holding 
back about a billion dollars, $4.5 billion remaining in the 
public transportation recovery projects. How long do you 
anticipate holding that back and why? And are there not enough 
existing recovery needs identified?
    Mr. Rogoff. No, that isn't the issue, Mr. Hanna. The issue 
really has to do with the fact, as I said earlier, that roughly 
$5.8 billion estimate of recovery costs was a very early 
estimate. It was done very quickly after the storm by FTA teams 
in concert with FEMA teams and our project management oversight 
contractors. We want to make sure--we believe, first and 
foremost, we have an obligation to pay for the recovery costs. 
And we want to make sure that we don't find that there are 
latent recovery costs that are discovered for which we would 
then need to come back to Congress for yet more money.
    And there have been examples that we are already seeing in 
the tristate area. We learned from Katrina that subsurface 
damage only starts to rear its head months after the storm. We 
want to hold moneys in reserve for that purpose. We are 
concerned about the fact that project costs may rise from these 
initial estimates, especially when everyone is competing for 
the same contractors to do them.
    So again, we do believe that our first and highest 
responsibility is to pay for the recovery and we want to make 
sure we have enough money in the bank to do it without having 
to come back to you all.
    Mr. Hanna. Is that because you don't have the capacity to 
anticipate the full extent of the damage or the recovery 
process? Twenty percent is a substantial amount of money to be 
guessing at.
    Mr. Rogoff. Well, but 20 percent, when you add the 
possibility of latent damage that we haven't yet seen. We are 
already getting reports from the Port Authority and from New 
Jersey Transit and the MTA of a higher than expected level of 
failures. There may be some equipment that we hoped to repair 
that may have to be replaced. I think it is prudent to withhold 
those funds. You can be sure they are not going to lay fallow. 
We will put them to appropriate use. But we think it is 
critical to make sure we do not send out resiliency grants only 
to discover that we shorted ourselves on the needs for 
recovery.
    Mr. Hanna. I understand. Also, Mr. Rogoff, in your written 
testimony, you highlight the rebuilding of the A train subway 
tracks to the Rockaways and Queens as a major success for rapid 
completion. Are there--I guess the question is, what did you 
learn about that? Are there means and methods and ideas that 
you have come up with that might be similar to how we went 
about repairing the I-35 West Bridge in Minnesota and that may 
work in a nonemergency situation that we can apply to things 
like the new WRTA and MAP-21.
    Mr. Rogoff. Understood. I believe, sir, that one of the 
things that we need to be attentive to, and I don't necessarily 
want to say this is a parallel with the I-35 bridge. But I can 
tell you in the transit experience, one of the reasons why the 
Rockaways was a success is because the MTA already had a very 
capable contractor on board that they were able to put to work 
right away. And I think one needs to understand, this committee 
will be in receipt of reports from the inspector general and 
one of the things they are going to tell you is that we had to 
take an openminded view on certain procurement issues as to 
whether we were going to allow limited competition procurements 
or even sole-source procurements to enable the transit agencies 
to get service up and running as quickly as possible. I commend 
that to your attention, because I think sometimes when we get 
too burdened by the rigor of Federal rules it can slow us down. 
The President said that he was going to eliminate red tape 
wherever he could to put this money to work. I think we have 
made great progress in doing that, and we look forward to 
explaining the judgment calls that we made there in order to 
get service on the street as soon as possible.
    Mr. Hanna. Do you have an idea of the premium generally 
that you pay for hiring contractors under emergency 
circumstances, if it is 10, 20, 30, some percentage?
    Mr. Rogoff. I wouldn't want to venture a guess.
    Mr. Hanna. Would you agree that there is one?
    Mr. Rogoff. I think so in terms of--you are talking about 
people who are able to deploy overnight and have the equipment 
or have access to the equipment. And when you are talking about 
a project as expansive as the Rockaways, I toured it very 
shortly after the storm. You are talking about literally 
hundreds of feet of railroad that were dangling in the air like 
a swinging bridge because all of the supports had been washed 
away. That was a ton of concrete to have to replace. And to do 
it smarter, I don't doubt that there was some premium to be 
paid. I am also concerned about the premium that we may pay 
when all of these contracts are being competed for at the same 
time in the years to come. We need to be mindful of that.
    Mr. Hanna. My time has expired. Thank you, sir.
    Mr. Shuster. I thank the gentleman.
    Mr. Maloney has a commitment to--the ranking member would 
like to yield 5 minutes to Mr. Maloney so he can get his 
question in.
    Mr. Maloney. Thank you, Mr. Chairman. I appreciate that 
very much. And I want to commend you and the ranking member for 
holding this important hearing. Thank everyone on the panel for 
their service.
    General Bostick, if I am not mistaken, you and I were 
together at Stewart Air Force Base, Air National Guard Base, in 
January or February welcoming home the Joint Task Force Empire 
411th Engineer Brigade. Am I right about that, sir?
    General Bostick. Yes, sir. Good to see you again.
    Mr. Maloney. I also think, if I am not mistaken, you are a 
graduate of the United States Military Academy at West Point, 
which I have the honor of representing. Am I right about that?
    General Bostick. You are correct.
    Mr. Maloney. Which explains your outstanding service to 
your country.
    And I want to tell you, sir, because that, of course, that 
is in my district in the Hudson Valley, but it is also one of 
the great jewels of the United States. And thank you for your 
service. But my question, sir, is--I have a quick question, I 
have a more complicated question. My quick question is, there 
was a commitment as part of the Sandy Supplemental Aid package 
to conduct a coastal flooding study, $20 million study. And it 
is my understanding that it is meant to include areas in the 
Hudson Valley that would extend up to both sides of the river, 
up to Poughkeepsie. I was hoping to get your thoughts on the 
status of that study. And if I can get your commitment that the 
Hudson Valley will be, as I believe it is supposed to be 
included in that study.
    General Bostick. This comprehensive study was in the 
Supplemental directed the Corps of Engineers to work with--
working with up to 90 different organizations, interagency 
locals. And we are looking at the whole North Atlantic Division 
coast. And that whole coastline. And the areas impacted by 
Sandy in North Atlantic Division. The draft report is near 
completion, we are reviewing it, and the final report will come 
to Congress January 2015.
    Mr. Maloney. And that will include a look at the Hudson 
Valley, sir?
    General Bostick. I will have to look at the specifics of 
the Hudson Valley. But my understanding is anything that was 
impacted by Hurricane Sandy in the North Atlantic Division and 
the Hudson Valley would be included.
    Mr. Maloney. Well, if I could ask you to take a look at 
that and get back to my office, I would appreciate that, sir.
    General Bostick. I will do that.
    Mr. Maloney. My second question relates to the timeliness 
with which we are conducting these projects. I think I would 
direct this to Administrator Mendez. Sir, there is--it is a 
fact that Hurricane Sandy did unprecedented damage in the 
Northeast. But prior to that in the Hudson Valley we also 
experienced Hurricane Irene in August of 2011, and Tropical 
Storm Lee. You know, there is a community I represent called 
New Windsor, New York; there is a little bridge there called 
Forge Hill Road bridge. It is Route 74. It is how you get 
between Route 32 and Route 94. The bridge was washed out as 
part of the flooding. The embankment gateway. It is a little 
two-lane bridge. If you went there the morning after the storm, 
sir, this is--this is what it would look like. It is a simple 
little bridge. It could be in any town in America. There is no 
doubt about what caused the damage. There is no doubt that it 
needs to be replaced. But it is a two-lane bridge. It could be 
anywhere. And folks got to go all the way up to Route 94, all 
the way around. It is causing all kinds of bottlenecks. If you 
went to Route 74 today, this morning, this is what it looks 
like. It is taken over 2 years, sir, and still no construction 
has started.
    Can you tell me--I would like to--I would like to get your 
commitment that we can find out what the heck is going on with 
the Forge Hill Road bridge, specifically. But can you tell me 
why it takes 2 years to get a simple little bridge built. If 
Task Force--if Joint Task Force Empire, the 411th Brigade, 
which was building bridges, if I am not mistaken, General 
Bostick, all over Afghanistan, that we welcomed home earlier 
this year, was put on this in a combat environment in 
Afghanistan, General, is it fair to say you could do this in 
under 2 years?
    General Bostick. I don't know the conditions of that 
specific bridge. But we did bridges and we could do bridges in 
Afghanistan in under 2 years.
    Mr. Maloney. Right. In a combat environment with people 
shooting at them. They built a lot of them in Afghanistan. Why 
can't we get a bridge built in America in the State of New York 
in under 2 years? If you could help me with that, sir, I would 
love to understand. And I would love to get your commitment on 
this specific project.
    Mr. Mendez. You do have my commitment. I don't know the 
details of that. But we will go look at it. I will raise some 
questions with our folks in New York.
    But let me just kind of step back a little bit. I can 
assure you that at least in today's environment, as an example, 
in the State of Washington earlier this year on I-5, a major, 
major interstate, a bridge got hit by a vehicle and the bridge 
dropped. And working with WSDOT, Washington State DOT, 
ourselves, and the Coast Guard, and a lot of other people, they 
were able to restore that, replace it, a permanent replacement 
in less than 6 months, I believe. So it can be done. I just 
don't know what happened on your situation. So let me look into 
that and we will get back to you.
    Mr. Maloney. I appreciate that very much. I would like that 
very much. And I think that--I think that if we--you know, it 
would be nice thing, wouldn't it, if we--if we can't do it in 
less than 2 years, maybe we ought to get Joint Task Force 
Empire to build some things in the United States as rapidly and 
as efficiently that is they are building them in Afghanistan 
and we might be a better country.
    My final question would be directed towards the--towards 
FEMA. And I guess I would like to know, I guess this would be 
directed to Deputy Administrator Zimmerman. Ms. Zimmerman, if 
you could help me with the Wallkill River, in particular. There 
is a--there is a--there was a rule in existence--my time is 
out; so maybe you could just give me this commitment and 
contact my office. But there is an issue with providing FEMA 
relief to lands that are largely agricultural property. This 
means a lot of folks who are farmers aren't getting help right 
now under the FEMA programs. It is a real issue in Orange 
County that is really suffering from Hurricane Irene and these 
other storms. If I could get your commitment to work with me on 
this I would sure appreciate it.
    Ms. Zimmerman. Yes, you have our commitment to work with 
you.
    Mr. Maloney. Thank you. I will yield back my time, Mr. 
Chairman. And thank you again for the indulgence.
    Mr. Shuster. The gentleman doesn't have any time to yield 
back, but that is OK. That is OK. I want members of the 
committee to take notice, I let Mr. Maloney go on because he 
was asking a question that every member of this committee has 
asked at some point in their career probably many times, why we 
can't get things done faster. And hopefully with the passage of 
MAP-21 they have some stuff in there for transit, which has 
enabled the Federal Transit Administration to move quicker on 
problems like this.
    So again, that is--that is the question we all keep asking 
around the table, let's do stuff faster. If you take one thing 
away from this committee, I think it is a very bipartisan 
approach; let's move things quicker.
    And with that, I yield to Mr. Webster for 5 minutes.
    Mr. Webster. Thank you, Mr. Chairman. I have a timing 
question also. So thank you for highlighting that.
    Back in 2004--this would be to Ms. Zimmerman--central 
Florida in a 45-day period of time were impacted by three 
hurricanes, all of which were stronger than Sandy, Charley, 
Frances, and Irene.
    And there are--there were many local municipalities and 
others who were sub-grantees from our grantee, which is the 
State of Florida, our division of Emergency Management, headed 
at that time by your administrator now, Mr. Fugate. And today, 
the audits are taking place, 10 years later. Many of the people 
are gone, people don't remember, whatever, but they are being 
audited. And in many, many cases asked to give back money that 
supposedly was given to them. And the point is, the timing to 
recover funds a decade after a disaster, and this is only the 
first, Charley, and there are two other hurricanes that will 
follow after this, which were again within that 45-day 
framework, that these local communities are going to have to 
produce documents, which they may or may not have. I don't 
know. But I know it is a difficulty.
    I heard another member of this committee talk about that 
when we were doing the bill, the FEMA bill. She was the mayor 
of West Palm Beach and they too were having the same problems. 
I guess my question is in the case of Sandy recovery, what 
initiatives are being taken by FEMA to provide greater level of 
certainty for these grantees and sub-grantees to avoid a 
similar recovery process 10 years from now that will--as 
opposed to possibly closing out these public assistance 
projects earlier and so that audits could occur hopefully in a 
timely manner.
    Ms. Zimmerman. Great. Yes. That is one of our concerns too, 
is to make sure as projects get completed that we are auditing 
them and going through and working with the paperwork with the 
applicant so that the grantees, as they administer the money 
and as the sub-grantees are out there doing the project and 
completing them. So one of the things is, we have taken a 
stronger approach when we set up and we put together the 
project worksheets, working with the applicants, the folks that 
are on the road, on the ground, it is the damages that they 
have incurred. So we are putting stronger criteria out there so 
that when we are documenting the projects to see what has been 
completed or what needs to be completed, making sure we have 
all of that documentation upfront as well as monitoring it as 
we work through the process.
    So working closer with our grantees and sub-grantees to 
make sure that documentation is there and the closer 
collaboration throughout the project.
    Mr. Webster. I have one other question, and that is, there 
has been a lot of talk about resiliency and resilient 
construction. Do you know anywhere in a statute or in rule or 
in guidance documents--even though I know we have had documents 
here from FEMA that talk about resilient--that ``resilient 
construction'' is defined?
    Ms. Zimmerman. So, yes. So when we have projects, whether 
it is through our public assistance program or our hazard 
mitigation grant program, we include mitigation to a project--
when something's been destroyed, and it might be old 
construction, whatever, we look to make those more resilient. 
Through the public assistance program we do have mitigation 
dollars that can be used on top of the project funding.
    Mr. Webster. Right. But what I am asking, is there a 
definition of ``resilient construction'' anywhere in any 
document that you know of?
    Ms. Zimmerman. I would have to get back with you on that 
one.
    Mr. Webster. OK. Thank you. Yield back.
    Mr. Shuster. I thank the gentleman.
    Ms. Brown is recognized for 5 minutes.
    Ms. Brown. Thank you, Mr. Chairman.
    Mr. Rogoff, thank you very much for meeting with the mayor 
of Orlando, Buddy Dyer, and the other mayors and everybody from 
central Florida with their concern about the projects that I 
guess, because of the $24 billion shutdown and the sequester, 
12 projects are caught up that are ready to go. But because of 
what is going on in Congress, these projects may not be able to 
move forward. Can you expound on--it is not just Orlando, it is 
central Florida, it is 12 other projects around the country.
    Mr. Rogoff. Well, there are a number of projects. You are 
talking specifically about our New Starts program?
    Ms. Brown. Yes, sir.
    Mr. Rogoff. Our New Starts and Small Starts program. And we 
did, in 2013, as we have in prior years, ask for increased 
funding for that program, because we were signing up more 
meritorious projects around the country. Some of them very 
large that are going to serve a great many passengers. And as 
Mr. Shuster pointed out, we are speeding up our processes at 
the request of this committee and others, and our own desire to 
move projects more quickly. Unfortunately, in 2013, rather than 
get the funding increase that we sought, we got frozen through 
the continuing resolution and then sequestered below that. And 
the result is that every FTA New Start project that had a full 
funding grant agreement had their scheduled payment reduced in 
2013.
    Now, looking forward, we obviously don't know the outcome 
of the appropriations process for 2014. So we don't know 
whether we will be able to fully fund all of our existing 
obligations in 2014. And not knowing that, it is very hard to 
predict whether we will have additional funding as we have 
requested in our budget to fund additional projects.
    Our entire appropriation may be taken up with the multiyear 
commitments we have already made. I think SunRail Phase 2 is 
the project of greatest concern to you, it is one of those 
projects that is in our pipeline. We have--I testified here and 
elsewhere before that our ability to fund new projects in the 
pipeline will only be determined by whether we can get 
sufficient appropriations to pay off our existing obligations.
    Ms. Brown. Thank you. Mr. Szabo, I need to go back--I know 
Mr. Boardman is here, and that has been acknowledged. But back 
to the $118 million that only $32 million have been able to be 
spent. Have the leadership in the House Transportation 
Committee and in the Senate, have they been contacted? Because 
basically after the hurricane, we took the train up. And we met 
with the stakeholders all the way up. And they told about the 
importance of harding the area so that, you know, we wouldn't 
have the flood coming in.
    So this is--can we have a list of how that $86 million is 
intended to be spent? And what is the status? Have you 
contacted the leadership? Because I am sure that the leadership 
on both Houses would want to make sure that what happened with 
Sandy doesn't happen again.
    Mr. Szabo. Yes, Congresswoman, we will be able to provide 
for you for the record a list of projects that would be 
appropriate for the additional what is now $81 million to 
ensure that resiliency of the infrastructure. We have continued 
to have dialogue, with what it would take for an appropriate 
fix. And again it is really a matter of simply deleting four 
words, and those four words ``or any other act.''
    Ms. Brown. Well, did not the President have the authority 
to just, you know, change those words?
    Mr. Szabo. Not once it is adopted into--you know, into 
statute.
    Ms. Brown. I see.
    Mr. Szabo. If we go back to the original provisions under 
PRIIA, the Secretary has the authority, we provide the 
appropriate oversight at FRA to ensure that these temporary 
transfers are just that, temporary. Those things that are 
appropriate on a day to day to smooth out cash flow, and ensure 
at the end of the year that it is a clean audit. And that is 
important----
    Ms. Brown. Is this what the attorneys told you?
    Mr. Szabo. That is correct.
    Ms. Brown. Fire those attorneys. Thank you very much. I 
yield back my time.
    Mr. Shuster. I thank the gentlelady.
    Mr. LoBiondo is recognized for 5 minutes.
    Mr. LoBiondo. Thank you, Mr. Chairman. Thank our panel for 
being here. I would like to thank my colleagues in the House 
for the strong bipartisan effort that it took to get the Sandy 
relief package passed. Our entire delegation in New Jersey and 
many others worked very hard. But I particularly want to thank 
Mr. Sires, Mr. Pascrell for some incredible work. We have 
partnered together on many issues, and this was another one 
that yielded a very good result.
    As we look to the aftermath of Sandy, I want to point out 
that our strong support and efforts continue for the thousands 
of people who are still displaced. A lot of folks think that 
since we are a year afterwards that everything is pretty well 
settled. And we made a lot of progress. But there, again, are 
thousands that are still displaced and devastated by the 
aftermath of the storm. I think reforms that Congress put in 
place after Katrina have resulted in a marked improvement with 
a Federal response to Sandy, and much good progress and work 
has been done because of the strong partnership that has been 
created.
    And for a lot of people they think this is just some 
Federal money poured into it. But this is the Federal 
Government, numerous agencies, the State of New Jersey, local 
communities that have come together in an extraordinary way. In 
the Sandy relief package, we gave a lot of flexibility to the 
State of New Jersey. Governor Christie has an incredible hands-
on attitude about how to work with the Federal agencies and 
determine where this money could be best put. But with all that 
good progress, because of flaws in the formula which no one 
could foresee, we have a number of communities that have just 
fallen through the cracks. The Bayshore communities in 
Cumberland County, while a very small part of Cumberland County 
geographically, have just been devastated.
    We have got Little Egg Harbor Township, we have got Mystic 
Island, we have got Tuckerton. These places have fallen through 
the cracks, and the suffering that these folks are undergoing 
is no less than the ones who were in the more inclusive areas. 
So we need to try to find the flexibility. And we are working 
with Federal agencies to continue to see if there is room in 
the language. So we are going to be that coming back, trying to 
see what we can do on this.
    Tourism is a tremendous mainstay for New Jersey. It is 
almost a $40 billion industry. So the recovery efforts focused 
early on on trying to recover for the tourism season were 
pretty successful. Infrastructure projects had great success.
    And General Bostick, I want to tell you that the Army Corps 
in Philadelphia has been nothing short of outstanding. These 
folks understand how to partner to get results, to get things 
done. They have been a pleasure to work with. They have gone in 
each and every community, looked at what we needed to do of how 
to get this done, and I think a real model for how some other 
Federal agencies to work. So while this Federal, State, and 
local partnership has been mostly effective, we still need to 
work even harder to make sure that we finish the job for those 
people who really have fallen between--between the cracks.
    Again, this is a result of a strong bipartisan effort that 
I think we can look to with a lot of pride. We can see that 
this work has resulted in tremendous amount of progress. But 
sort of unrelated to Sandy, but certainly a part of it, is what 
is happening with the flood insurance maps. And here again, we 
have had a pretty united effort from our delegation. Senators 
Menendez and Booker are fully engaged. But this is adding to 
the misery that the people of New Jersey along the coast are 
experiencing with the aftermath of Sandy.
    So we have a very strong bipartisan effort with a number of 
folks that are working on this. And we hope to have a 
successful conclusion. So I would like to once again thank 
those Members of the partnership for their work, but remind 
everybody that we still have an awful lot that has to be done 
and we need the strong effort to continue. Mr. Chairman, thank 
you very much.
    Mr. Duncan [presiding]. Thank you. Mr. Bishop is next.
    Mr. Bishop. Thank you, Mr. Chairman. I want to thank the 
panel both for your presentation today and also for all the 
work that you have done and continue to do on behalf of the 
people we all represent. I want a particular word of thanks for 
FEMA, who was on the ground in my district within hours of the 
storm hitting and stays there and has done a great job, and a 
particular word of thanks also to the Army Corps of Engineers 
who continues to do great work.
    And, General Bostick, in addition to thanking you, I want 
to pay particular thank you and commendation to David Leach and 
Joe Vietri, who are sitting behind you, who have done great, 
great work in our district and throughout the Northeast.
    Real quickly the gentleman from South Carolina before was 
raising issues having to do with cost and what--the remedy we 
have put in place. And he was suggesting that we had a $50 
billion need against which we were proposing a $60 billion 
solution. And I just--I think it is important that we all have 
the same set of numbers. The Governors of New York and New 
Jersey provided a very, very detailed list back in the fall of 
2012 to the White House. That list was north of $80 billion 
worth of needs that they were requesting the Federal Government 
to address. The response was $60 billion, $10 billion of which 
was essentially additional borrowing authority for the flood 
insurance program. So that left roughly $50 billion, which has 
been reduced by discrimination.
    So what really we are doing is providing approximately $45 
billion or $47 billion against an $85 billion need. So plenty 
of money. I mean, lots of money, $47 billion. But it is not as 
if we are throwing money at problems and not having identified 
problems with any degree of specificity.
    Let me just go to a couple of things real quick. The 
President made a commitment to eliminating red tape for the 
Sandy recovery efforts. And my question, General Bostick, is to 
you, is, is that commitment really being acted upon? And do we 
really have a commitment to expedite projects to the greatest 
extent possible from the partners that the Corps must work 
with? And I am speaking specifically about OMB, Fish and 
Wildlife, Department of the Interior. Is there truly a 
Governmentwide commitment to eliminating red tape so that we 
can put solutions in place as quickly as possible? And, if not, 
is there anything this committee can do to assist you in 
completing your efforts?
    General Bostick. Mr. Bishop, thank for that question, and 
also thanks for recognizing members of my team and also the 
team that is doing the work in North Atlantic Division and 
across the Corps.
    To your question, in terms of Sandy and the post-Sandy 
work, we feel like we are moving as fast as we can safely move. 
And we think the interagency work, the work with OMB, the work 
that is happening on the ground with the locals is moving as 
fast as we can safely move. And we feel good about the 
authorities that we have been given. I think if you look 
broader in terms of the work that the Corps must do, there is 
more work to do in terms of streamlining our efforts and making 
us all work together to move quickly. But in terms of post-
Sandy construction, we feel good about where we are at.
    Mr. Bishop. OK. Thank you for that. We talked a little 
about funding. The Corps had $5.35 billion. And that is--that 
is an enormous amount of money. But is it sufficient to repair 
the damage that was caused by 100-year storm, and is it 
sufficient to repair the damage in such a way that we will not 
have damage to that extent if we are hit by additional storms 
going forward? And let me just add a little bit also. One of 
the things that I am very concerned about is we are going to 
make repairs, particularly to our shorelines, but those repairs 
are going to require ongoing maintenance. And to the extent--is 
it possible for the Corps to sequester some portion--bad word--
set aside some portion of the funding so that there could be a 
pool available for ongoing maintenance so that it doesn't all 
fall on either the annual appropriations process or the local 
governments?
    General Bostick. That is a complex question, sir.
    Mr. Bishop. Sorry.
    General Bostick. What I would say is it is going to be yes-
and-no answer. Yes, it is enough in the areas that we have been 
asked to respond to immediately. The flood control and coastal 
emergency. Those projects, the O&M projects that were direct in 
our authorities. The comprehensive study, the $20 million to do 
the comprehensive study. I feel we have adequate funds to do 
what we have been asked to do there. There are some projects 
that are authorized but not constructed. There are some 
projects that may come out of ongoing investigations. The 
comprehensive study is not going to produce projects, but down 
the road it may produce ideas that the Congress may want to 
seek projects. And there is not enough money for that.
    Mr. Bishop. Thank you very much, gentlemen. Thank you, Mr. 
Chairman.
    Mr. Shuster [presiding]. With that, Mr. Davis is recognized 
for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. And thanks 
for holding this hearing.
    Thank you to each and every one of you for being here 
today.
    Joe, I would really like to talk to you about some high-
speed rail issues in Springfield to Chicago to Saint Louis, but 
we will save that for another day.
    I really have enjoyed hearing some of the questions and the 
testimony relating to some of the processes that are followed 
post-disaster. And I think in this country, when it comes to 
disaster relief, we do a great job on the ground early. FEMA 
needs to be congratulated. All of your agencies do a phenomenal 
job. But we have the problems post-disaster. And it seems to 
me, too, that in many of the processes that take place 
afterwards we don't dedicate enough time to try and make them 
easier on the average hardworking taxpayers of this country, 
too, who may still have to deal with agencies like FEMA and 
others.
    And with that in mind, I know Mr. Webster talked about the 
audit process that sometimes takes up to 10 years to address 
issues relating to taxpayer dollars being spent. We all want to 
save taxpayer dollars, Administrator Zimmerman, but we have to 
get a better process, too, that is in place so that those 
audits get done more quickly, not just on the public assistance 
projects that my colleague, Mr. Webster, mentioned, but also 
when it comes to individual assistance.
    And we are going to see this in the aftermath of Hurricane 
Sandy. We have seen it in the aftermath of Hurricane Katrina 
and many disasters near my district along the Mississippi 
River, where, years from now, individuals will get letters 
stating that they now owe FEMA money.
    So I would urge you to continue to work towards making the 
process on the front end better so that we avoid these problems 
in the future. Because you know who they call? They call us. 
And then we call you. And it is unfortunate when that process 
has to happen.
    I do want to address, because I know that flood maps and 
mapping issues are frustrating folks along the eastern 
seaboard, too, as they are in and along the Mississippi River. 
As you know, we have a project that we are working with the 
Corps of Engineers to try and upgrade our levies in the metro 
east, while it seems we are in a race with FEMA to avoid the 
flood insurance rates going up drastically. It seems we should 
have better coordination.
    And along that line, the LOMA process. The LOMA process is 
a process that I found some personal frustration with in 
helping individuals walk through that. And I want to ask you a 
question. What is your average time it takes for a LOMA request 
to actually be--from filing date through adjudication?
    Ms. Zimmerman. Thank you for that question, Representative 
Davis. That falls within our Flood Insurance and Mitigation 
branch. I come from Response and Recovery. And I would not be 
able to give you a quote, as far as how long that process 
takes. So we would be happy to get that information back to you 
and give you that timeline.
    Mr. Davis. Can you get that person here in the next minute 
and 42 seconds?
    Ms. Zimmerman. Well, let me see.
    Mr. Davis. Would you take my question back?
    Ms. Zimmerman. Yes, definitely.
    Mr. Davis. Because it goes with the whole--it also goes 
within the responsibility of FEMA and within the area that you 
are responsible for, too. Because it is the entire process, 
whether it is a mapping process, whether it is the disaster 
assistance process, whether it is actually making sure that 
individuals and public entities get the funds that they need 
and deserve. And it is an overall frustration for Members like 
me that we just see one agency within different departments 
seemingly work against themselves. And that is what we are 
trying to fix here.
    And I believe this committee--I agree with Chairman 
Shuster. We have seen Chairman Shuster and so many people on 
this committee in a bipartisan way put forth efforts to 
streamline processes. Because what is happening now sometimes 
isn't the best. And each and every one of you know a better way 
to move the bureaucracy. And we need to hear from you, too, and 
we need to hear from all of your agencies on how we can make 
the processes better post this disaster and the many more that 
are sure to come.
    And, with that, since I asked the question to the wrong 
person, I will yield back the balance of my time, Mr. Chairman.
    Mr. Shuster. I thank the gentleman.
    Now Mr. Sires is recognized for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
meeting.
    Before I start, I want to thank my colleague LoBiondo for 
his hard work and the kind words. He took the leadership and we 
were able to secure the money that New Jersey needed. So I feel 
real good about my colleagues.
    You know, one of my pet peeves when I was in the New Jersey 
Assembly was always putting money, every year--beaches, 
replenishment, and everything else that went along when we had 
a storm. And this resilience program, to me, I think it is 
extremely important. Because we would build it, and it would 
break again.
    So I guess my question to you now is this: Knowing that we 
need to do this resilience and knowing that we need to fix this 
or we can have the money to do the infrastructure that is going 
to be able to withstand the storms, are we better off now or 
better prepared for a future storm than we were before Sandy? 
Have we done some of the work that needed to be done in 
infrastructure to withstand some of the storms in the future?
    Mr. Rogoff. I will take a quick piece of that, but I only 
have a small piece of that answer, Mr. Sires.
    We have at the FTA allocated not just recovery money but we 
have also allocated $1.3 billion to the transit agencies in the 
region, including New Jersey Transit and the MTA, for what we 
call local priority resiliency.
    The concept for that funding was this: If you are going to 
go into a tunnel and you are going to restore it and do the 
necessary restoration, it makes sense and certainly is 
efficient from the perspective of the taxpayer to complete the 
resilience element of that project at the same time.
    So the classic example is you have rail tunnels that also 
have the signal and the electrical work and the ductwork at the 
ground level. And putting it up to the roof doesn't cost all 
that much, and, Lord knows, you don't want to have to shut down 
the tunnel twice.
    So, yes, we are in the midst of doing that construction. It 
is not completed yet, but there are what I would call, kind of, 
small bore resiliency efforts that are underway.
    Mr. Sires. Well, I am glad to hear that, because one of the 
problems that we had in Hoboken, New Jersey, was the signals. 
Apparently, there were, like, 1,200 signals that went because 
of the slope of the--so this is where the resilience money will 
be spent, I would assume.
    Mr. Rogoff. That is one part of it. We----
    Mr. Sires. There are others, I am sure.
    Mr. Rogoff. We expect to compete a larger chunk of it for--
--
    Mr. Sires. Because the other question is going to be to 
Lieutenant General Bostick.
    You know, one of the visits that I made after the storm 
were the ports. And the ports were hit hard, their 
infrastructure. So I was just wondering if you are working with 
the ports in order to raise the grid, you know, the electrical 
grids, and make everything somehow able to better stand the 
storms and the floods that hit these ports. Because, as you 
know, the ports in our area, there were 250,000 jobs, and that 
is impacted. And I must say that they were back within a few 
days. Almost a week, they were back functioning.
    So I was just wondering if the Army Corps of Engineers was 
working with the ports on their resilience program to make sure 
the infrastructure is capable of handling some of these storms.
    General Bostick. Representative, we work with the ports, 
but our responsibility by the authorities that we have are 
primarily in the O&M and the dredging work that we do. And then 
we do some work on the coastlines.
    We are working very closely with the Department of Energy 
and Deputy Secretary Poneman and his team in terms of response 
capability. Our authorities also allow us to respond quickly 
with generator support.
    But in terms of the infrastructure of the electrical grid, 
that is not an area that we work.
    Mr. Sires. All right.
    One of the questions that I asked Governor Christie during 
this whole storm is, we had a ton of generators delivered to 
New Jersey, but some of these places weren't able to hook them 
up because, you know, the way where the hook is--or it did not 
fit.
    So I was just wondering, is that a State, I guess, 
requirement or a Federal requirement where we can make 
something that everybody has the same ability to switch on?
    Maybe I am not making myself clear. For example, the gas 
stations, they couldn't get the power because, although you had 
a generator, these generators couldn't be hooked on. You 
couldn't deliver the gas because they didn't have the same way 
of delivering the gas.
    Do we need something that is--everybody is the same, 
basically?
    Mr. Rogoff. One thing I think does touch on this, Mr. 
Sires, is if you look at the Hurricane Sandy Task Force report, 
the whole issue of the availability of fuel in the event of a 
storm was actually quite critical. So, yes, they could get 
generators, but they couldn't necessarily get the fuel to fire 
them up.
    Mr. Sires. Right.
    Mr. Rogoff. And, similarly, for transit operators and even 
for evacuation needs, how we redeploy fuel so it is available 
when we actually need it at its most critical time is one of 
the issues that the task force is looking at.
    Mr. Sires. That would be a State issue or Federal issue? I 
am sorry.
    Mr. Rogoff. Well, I think, like everything else here, it is 
a partnership.
    Mr. Sires. OK.
    Thank you, Mr. Chairman.
    Mr. Shuster. I thank the gentleman.
    And, with that, Mr. Farenthold is recognized for 5 minutes.
    Mr. Farenthold. Thank you very much, Chairman Shuster.
    And I have seen a great improvement in the response to 
Sandy after Katrina. And my goal is to continue that level of 
improvement as we continue to face natural disasters. We all 
hope and pray that they won't happen, but they always do.
    Obviously, there are funding issues associated with this. 
You know, I think it is a whole other issue about how we 
address funding for natural disasters. Do we continue to do 
these as supplemental bills, or is it something that we should 
be planning for because we know it is going to happen?
    But along the lines of continuing improvement and learning 
from these issues, I know, Ms. Zimmerman, you aren't the flood 
insurance maps expert, but is there some analysis that you all 
are working with that department to determine the accuracy of 
these maps as predictors of damages, specifically with respect 
to hurricanes? They are, kind of, unusual, very powerful 
weather events. Is there some process underway to determine the 
accuracy of the flood maps and, for that matter, any of our 
other predictive mechanisms?
    Ms. Zimmerman. Yes, I can guarantee you that we are looking 
at the maps, looking at their accuracy, as we are updating all 
of the maps going forward. And they are one of the tools that 
we do look at as to when we are looking and doing our hazard 
and risk analysis of all communities across the United States 
and really working with the State and local partners to assess 
those risks. So it is one of the many pieces that we have when 
we do look----
    Mr. Farenthold. And I ask this question because I am 
concerned about--I am also concerned about the science and 
accuracy behind the map. I think Mr. LoBiondo and Mr. Davis and 
several other folks have expressed some concern about the 
mapping process. And I do think that is important in our 
preparation for disasters, even above and beyond just 
determining the flood insurance rates. And I would join with 
the other Members in encouraging you to take back to your 
office that the maps are an area of interest to this committee 
and to Congress as a whole.
    Let me ask General Bostick with the Corps real quickly, 
there is a constant battle for dollars between maintenance and 
new projects. And, you know, one of the concerns that I hear 
from some of the folks back in Texas is that there isn't enough 
money for maintenance. And there is an attitude within the 
community, and I am not sure how deeply it extends into the 
Corps, but an attitude of, well, we will wait till the next 
hurricane and it will fall down and then they will have to find 
money to fix it.
    How are we determining in the Corps what is necessary to do 
in maintenance to keep vital facilities open? Where are our 
challenges there, and how successful do you think we are being 
at that?
    General Bostick. This is a significant area of concern for 
me and all of the Corps leaders and employees. We are managing 
about $250 billion worth of projects that the Congress has 
authorized and asked us to manage, and we have very little 
dollars in which to do that. The reality is we are doing mostly 
operations and maintenance versus new construction. Very little 
new construction work, in fact.
    So our focus is how do we use the precious dollars that we 
have to continue to operate. One of the things that we are 
doing in our Civil Works Transformation is to look at our 
infrastructure strategy and determine, within that strategy, 
that portfolio of $250 billion worth of infrastructure, what 
should we retain? What should we repurpose? And what should we 
divest of? There is just too much infrastructure that we can no 
longer properly maintain.
    So part of the strategy has got to come back to the local, 
the State, and the Federal leaders and say, this is no longer 
serving the purpose for which Congress authorized it.
    Mr. Farenthold. Or, of course, we could pull all the Harbor 
Maintenance Trust Fund back into harbor maintenance. That might 
help.
    And, Mr. Mendez, let me ask you a question. Also, thank you 
for coming down to the district I represent, Corpus Christi. I 
hope you enjoyed your visit.
    One of our ongoing problems throughout the country is the 
condition of our bridges. And can you tell me quickly what 
happens when we have a weather event, a hurricane, lots of 
water, to substandard bridges? And can you just spend the next 
couple seconds telling us how bad it is or is not?
    Mr. Mendez. Well, let me just give you numbers that I do 
have. Throughout the Nation, we have close to 600,000 bridges. 
Of that, about, I would say, maybe 150,000 of them may not meet 
current design standards or could use some form of either 
replacement or some kind of refurbishment, if you will. So that 
gives you an understanding as to how the bridges are.
    And, obviously, depending on a specific condition on a 
specific bridge, a lot of water may not be a good thing if you 
have a lot of scour or your columns are being eroded.
    Mr. Farenthold. All right. Well, I see my time has expired.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Farenthold.
    Mr. Carson is recognized for 5 minutes.
    Mr. Carson. Thank you, Mr. Chairman.
    Madam Zimmerman, your written testimony mentions the 
President's Hurricane Sandy Rebuilding Task Force. This task 
force recently published its reports with recommendations to 
help the impacted areas and effectively encouraged resilient 
rebuilding approaches.
    I am very interested in the benefits of resilient building 
and rebuilding techniques which can improve pre-disaster 
mitigation. Will you highlight some of the task force 
recommendations for us and describe how this committee can help 
these recommendations become implemented?
    Ms. Zimmerman. Sure. Thank you, Representative.
    The task force report did come out. I believe there are 69 
recommendations in the report. And as we move forward to build 
more resilience, as we have been talking about on a number of 
questions and answers here today, looking at projects and we 
would look at it holistically instead of just the FEMA Public 
Assistance Program. We repair what was damaged or destroyed, 
but we want to make sure what we are repairing has some degree 
of resiliency to it, some mitigation efforts to go into it, so 
that we are not continually rebuilding the same structures and 
putting them back the way they were.
    So, throughout the report, it has a number of 
recommendations and things that I know folks are working on, 
the working groups, to move that forward and to define how do 
we build back more resilient. And as experienced here on this 
panel, bringing all Federal agencies together, as all of us 
received different funding sources through the Sandy Recovery 
Improvement Act, and how do we put those dollars to the best 
use so that we are not duplicating funding. Also, to make sure 
that when we come to the resiliency that we are looking at what 
is the best case, going back to what is the benefit-cost of 
this and are we making sure that we are using the best use of 
the money so that we are not going to come back in and have to 
rebuild.
    So I know, through the recommendations in the report, 
several Federal agencies, as well as working with our State and 
local partners--because it goes beyond that, and it is looking 
beyond just Sandy, whenever disaster strikes, and how we come 
together to make sure that we are building more resilient.
    Mr. Carson. Thank you.
    My followup is for the entire panel. A common complaint 
after past disasters is the constant changing of FEMA staff, 
who often provide conflicting answers on project eligibility. 
This leads to problems not only early on but often later on in 
the process when the audits are conducted and find various 
costs and projects were ineligible for funding.
    What steps might FEMA be taking to provide continuity in 
FEMA's decisionmaking with respect to recovery projects and to 
really ensure that correct information is being provided to all 
applicants?
    Ms. Zimmerman. I will take that one.
    What we have done is we have really instituted to 
documenting our process and to do training. We have put forward 
in the last 2 years a number of guidance documents and to 
making sure that our staff is trained out there in the field.
    Mr. Carson. Uh-huh.
    Ms. Zimmerman. So when there is transition, a lot of our 
workforce are disaster reservists. They are out there for a 
period of time and move from disaster to disaster. But we want 
to make sure that when somebody has to leave and somebody new 
comes in that there is a transition period. So that they are 
working through getting to understand the applicants that they 
are assigned to and working with their projects.
    And, as I say, just the guidance documents and the training 
to make sure folks are doing it the same way so that you are 
not getting that one person says one thing and the next person 
comes in and says the other thing. So we are trying to put that 
together, and we have been doing a lot of training. We have 
trained over 400 of our Public Assistance Cadre members so that 
they are trying to do the system the same way.
    Mr. Carson. What, from the individual witnesses, are the 
top two factors that have effectively restricted your agency 
from being able to implement what Congress directed you to do 
in the Sandy Supplemental legislation? I only have a minute 
left.
    All right. Think on it.
    Mr. Chairman, I yield back.
    Mr. Shuster. I thank the gentleman.
    If anybody would like to answer that in writing, we 
certainly would appreciate those types of responses. You could 
maybe even make it the top three. That would be helpful to us.
    With that, Chairman Duncan is recognized.
    Mr. Duncan.Well, thank you very much, Mr. Chairman. And I 
had to speak on the floor and had other obligations that kept 
me from being here the first hour or so of this hearing, so I 
apologize if I am repeating something.
    But I have a news report from just a little over 2 weeks 
ago that says, though the Government aid has been slow to 
trickle over the past year, already the cases of fraud have 
piled up, and officials are warning that as more money gets 
freed up, more will try to bilk the system. And it says that in 
just one county, Monmouth County, there have been 210 cases in 
just that one county that have been opened.
    And then, also, I understand that there is concern from 
past disasters and also possibly in this one that some agencies 
or individuals have been given money that--that FEMA had 
already reimbursed the people or they had gotten from insurance 
proceeds.
    And I am wondering--so I have two questions. One, what is 
being done, or is enough being done, to make sure that there is 
not as much fraud in this situation as there has been in some 
of the other disasters? And, secondly, what happens when you 
later find out--or do you later make efforts to find out 
whether agencies have gotten money from more than one source?
    Mr. Rogoff, we will start with you.
    Mr. Rogoff. Sure. Well, Chairman Duncan, we have a very 
limited universe of grantees. We are making grants directly to 
transit agencies, so we are not making them to individuals 
within the communities.
    But we have stood up a number of measures to ensure that we 
ensure the absolute minimum and hopefully embody a zero 
tolerance for waste, fraud, and abuse. For any grantee 
receiving over $100 million or more, which includes all of the 
big ones in the New York-New Jersey region, we are requiring 
them to have their own integrity monitors. We are doing a risk-
based approach not only to every grantee but to every grant.
    We have procedures in place with FEMA. We see every award 
they might make to any transit agency and they are seeing every 
award that we make to every transit agency to ensure that there 
is no duplication. And we are currently working with FEMA to 
make sure that transit agencies cannot double dip on insurance 
and Federal assistance, and we are going to be modeling our 
approach on theirs.
    It gets complicated. We have hired insurance experts to 
help us in the following respect. Some transit agencies have 
individual facilities that were insured. Some are getting a 
lump-sum settlement from their insurer for all of the damage, 
which includes both transit assets and nontransit assets. And 
we are going to make sure that even when they get a lump sum, 
it is prorated on their transit damage so they are not just 
putting their insurance settlement against some other universe 
of cost and letting us pay for all of the transit damage. So I 
think we have a very good series of procedures in place.
    Mr. Duncan. All right. Ms. Zimmerman.
    Ms. Zimmerman. Going back to the cases for individual 
assistance, post-Katrina we had an improper payment rate of 
between 9 and 14 percent. Since that time, we put into place a 
number of stopgaps and a number of things that we do internally 
to be able to doublecheck, and a year ago, our improper payment 
rate was .03 percent. So as we go forward in trying to get the 
money out there quickly to disaster survivors following 
disasters, there are a lot of checks and balances that we do 
within our own system at our processing centers.
    So moving forward we are hopeful there won't be a lot of 
that. But, as you know, when we get the money out there after 
we have been able to validate damages in someone's home, if 
they do get insurance coverage, then we do go back and ask them 
to see what the insurance covered and what things were not 
covered and if we are able to cover those, so there will be 
some cases where we may have to ask for refunds back based on 
money that we have provided to disaster applicants.
    For our public assistance projects, as was stated, we are 
working----
    Mr. Duncan. Have you asked for any refunds in this 
situation yet?
    Ms. Zimmerman. From disaster applicants? I believe we have 
from a few.
    Mr. Duncan. Let me ask you about something else. When Mr. 
Sires mentioned, as he said, a ton of generators that were sent 
there that couldn't be used, I remembered when FEMA had many 
thousands of trailers that they ended up with, brand new 
trailers but for another disaster that just ended up sitting 
there. Are you familiar with the generators that he is asking 
about and are we going to read about things like in the future 
on this?
    Ms. Zimmerman. I know we work very closely with the Corps 
of Engineers when it comes to generators. We provide 
generators, working with the Corps of Engineers to install 
them. General Bostick?
    General Bostick. What we did in post-Sandy, I think there 
was an effort from the President on down, including the 
Governors, to push forward with as much assets as we could. So 
we had more assets available in some areas than they needed.
    The other thing that Representative Sires brought up is the 
connections. What we do prior to a storm is to conduct 
assessments, and the Corps conducted about 2,400 assessments of 
critical infrastructure, like hospitals, police stations, fire 
stations and those sorts of things. Since Sandy hit a major 
city, the type which we had not seen before, there were 
generator requirements on things that were not critical 
infrastructure. So we did not have connections on those. And it 
is really up to the States to help us with that.
    Mr. Duncan. All right. My time is up. Thank you, Mr. 
Chairman.
    Mr. Shuster. I thank the gentleman. With that, Ms. Esty, 5 
minutes, please.
    Ms. Esty. Thank you, Mr. Chairman. I would like to thank 
the panel for your answers and for staying all the way to the 
last person, who I think is here today. I, too, have been 
shuttling back and forth with the Science Committee where we 
are having a vigorous debate about climate change.
    It is my hope that we can learn from what your agencies 
have done, what best practices should be going forward. I come 
from the State of Connecticut. We still have people rebuilding 
in my State. So there are two areas I would like to get your 
comments on and feedback about.
    First, to return to the remarks from my colleague, Mr. 
Gibbs, a little bit earlier, so General Bostick, this is for 
you, we have learned a lot in Connecticut about the 
vulnerability of our shoreline, most of which is unprotected. 
The State has been trying to address through nonstructural 
alternatives, but, frankly, there just hasn't been support for 
that. And as our policies tend to focus on replacement, I would 
hope that these comprehensive surveys are used with now rising 
sea levels, increasing severity of storms, to really take a 
good hard look at nonhard structure alternatives that may allow 
us in places like Long Island Sound, both on the Connecticut 
and the New York side, and I would like your comments and 
thoughts about what we could do on a congressional level to 
facilitate the Corps and any of your agencies to really explore 
cost-effective ways of expending taxpayer dollars to better 
protect life, limb and property.
    General Bostick. Thank you for that question. I think we 
are going to learn a lot from the comprehensive study. It will 
come to Congress in January of 2015, and I think Congress will 
have the opportunity to act on that and determine the way 
forward. We will and have considered climate change and sea 
level rise and more frequent storms and higher storm surges and 
the impact that that could have. Part of that study will 
include the kind of options that you are talking about, 
nonstructural options, as well as structural. So I think all of 
that is on the table and we will have great flexibility in the 
way forward.
    I think the critical thing for the country is to decide how 
it wants to prioritize and where it wants to prioritize its 
precious resources; and realize it is going to be not just a 
Federal solution, but a non-Federal, local, tribal and all of 
us working together.
    Ms. Esty. Thank you. Now I would like to turn to the 
transportation side. As you well know, we had rail lines 
underwater in Connecticut for a considerable period of time. 
That will not be the last time we have that happen. So I would 
like you to talk a little bit about what alternatives, 
particularly given the complexity of the ownership of those 
rails in Connecticut, and whether there might be funding that 
is available to address what, in some ways, this is the 
resilience question we have been talking about over and over 
again here today, what that has to do with everything from 100-
year-old catenary lines that we are relying on, and an energy 
transmission system that is inadequate to deal with these 
issues, as well as rail beds that are too low. And all of 
these, and as we know, any one piece, the weakest piece is 
going to bring the whole system down on the most heavily used 
passenger rail system in the country.
    So if you can talk about sort of the intermodal impact of 
that, I-95 is already jammed, there is no place for those cars 
to go. We have experienced this twice already this year, and it 
wasn't Sandy, it was accidents that caused this. So if you can 
give us some thought. And frankly, the Governor is here for 
Connecticut today and he is going to want to know from me is 
the State going to be able to get some assistance in raising 
those rail beds, which is, indeed, clearly one of our choke 
points and one of our risks for resiliency.
    Mr. Rogoff. Well, Ms. Esty, I can tell you that all the 
transit agencies that were impacted by Sandy are eligible for 
this resiliency funding. And we are already obviously in a 
detailed conversation with Metro North about it.
    Certainly, you make a good point. The fact that Joe and I 
should jointly address this question is indicative of the 
challenge. The line that runs along the shoreline is shared by 
Amtrak, ConnDOT trains and Metro North trains. It is a critical 
asset. Probably more rail passengers use that than most every 
other district represented here on the dais, with the exception 
of Mr. Nadler's probably.
    That is why our priority for our resiliency funding is 
going to go to regional approaches where we see that 
cooperative conversation between Metro North and Amtrak and 
ConnDOT--making sure that there is one comprehensive solution, 
not a solution that protects one segment of rail only to flood 
another.
    Mr. Szabo. I think I would just add to that, I mean, Peter 
gave the appropriate answer for the immediate solution. For the 
longer term solution I come back to a couple points I made in 
my testimony talking about the importance of regionalism, 
regional planning, the importance of moving forward with our 
NEC Future vision and making sure that we are then meeting the 
needs of all of these transit and intercity passenger rail 
operators comprehensively, because the point has been well 
made, it is the weakest part, you know, link in the chain, that 
ultimately breaks down the whole system.
    Ms. Esty. Thank you very much. I yield back.
    Mr. Shuster. I thank the gentlelady. I have just one final 
question and just a remark. Mr. Rogoff, the final question will 
be to you, but I have a remark first.
    I just want to make sure that Members and panelists know 
and one of my colleagues may have alluded to that I think we 
are only about recovery, when certainly this committee and what 
you do with these funds are about recovery. They are also about 
mitigation. But we certainly want to do what is smart and try 
to raise the level to prevent these things from happening again 
or mitigating so that there is a lot less damage.
    But there comes a point, with the limited dollars that we 
have, that we may be able to raise it a level or two. But to go 
to that third and fourth and fifth level, I believe that is 
when the States and the local governments have to step in and 
say, OK, if we want to take it three or four levels up, that is 
something the taxpayers of New York or New Jersey or New York 
City need to do, because the Federal Government is coming in 
with taxpayer dollars from the States that are not directly 
impacted by it.
    So, again, I want to make it clear that I think that 
certainly recovery, raising it up, let's be smart about it, 
make the investment, if it makes sense to do it.
    The other concern that I have is this is a new program, the 
transit program, and many times administrations spend the money 
that is not intended, what Congress had intended. In fact my 
mother used to say to me, I gave you an inch, you took it a 
mile. And whether it is a Republican administration or a 
Democrat administration, that kind of thing, my mother's wisdom 
is right, we give you an inch and you take a mile.
    So the final question, Mr. Rogoff, is back to the cost-
benefit. I think it is so important to make sure that a cost-
benefit is paramount, also making sure it is transparent so the 
public can see that, and I think the public understands cost-
benefit analysis. What would you see as a scenario where you 
would say, well, the cost-benefit analysis is here and we 
really have got to take a different tact on that? Because maybe 
there are those scenarios out there. Can you think of one that 
might give us some guidance?
    Mr. Rogoff. Quite frankly, not offhand. Well, let me 
provide one. Depending on what you include in costs and what 
you include in benefits, there could be a community for which 
the transit access is absolutely critical but the number of 
transit riders doesn't generate as much by way of benefits so 
the solution is that those people lose service. I don't even 
have a place in mind when I think about that right now.
    But why do we have an Essential Air Service program? Well, 
a decision has been made by some that we need to maintain that 
connectivity for those communities and those airports where 
they otherwise wouldn't get it. I could see a scenario where we 
would make a judgment that it is absolutely essential that that 
community continue to have access to transit, even if there are 
comparatively few riders. But we are not there yet. I can 
assure you, as I said earlier, cost-benefit is going to be 
elemental to our analysis.
    If I could raise one other thing only because Mr. Webster 
is still here and he raised a question that I feel I could help 
answer. He asked earlier if resiliency investments were defined 
anywhere on paper. They will be shortly, at least for purposes 
of the Federal Transit Administration, because we will be 
putting out a notice of funding availability inviting 
applications for those resiliency investments and we will 
obviously, in that notice, have to define what is eligible and 
what is not. So I just wanted to call that to his attention, 
because there will be something on paper to look at at that 
time.
    Mr. Shuster. I appreciate that. And, again, this committee 
and this Congress needs to have that transparency. We saw the 
TIGER grants and nobody can ever figure out exactly why they 
went where they did. I have my own thoughts on that. But, 
again, transparency is important and I think cost-benefit 
analysis is absolutely central to the whole question.
    So, again, I thank all you for being here. I appreciate you 
spending your time here. Are there any further questions from 
any Members of the panel? Seeing none, I would like to thank 
each of our witnesses for their testimony today.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted in writing and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    Again, thank you all for taking the time today. I 
appreciate it greatly. This hearing is adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
